APPENDIX

DESCRIPTION

PAGES

A

Texas Court of Criminal Appeals order, Ex parte
Tyrone Cade v. State, WR-83,274-03 (Tex. Crim. App.
Mar. 31, 2021)

1a-4a

B

United States District Court order denying Motion for
Reconsideration, Cade v. Lumpkin, No. 17-CV-3396
(N.D. Tex. Sept 23, 2020)

5a-6a

C

United States District Court memorandum opinion
and order granting stay and abeyance, Cade v.
Lumpkin, No. 17-CV-3396 (N.D. Tex. Aug. 19, 2020)

D

United States District Court findings, conclusions,
and recommendation of the United States Magistrate
Judge, Cade v. Lumpkin, No. 17-CV-3396 (N.D. Tex.
July 02, 2020)

12a-27a

E

Texas Court of Criminal Appeals order, Ex parte
Tyrone Cade v. State, WR-83,274-02 (Tex. Crim. App.
Oct. 25, 2017)

28a-29a

F

Texas Court of Criminal Appeals order, Ex parte
Tyrone Cade v. State, WR-83,274-01 (Tex. Crim. App.
Oct. 25, 2017)

30a-36a

G

Texas 265th District Court findings of fact and
conclusions of law, Ex Parte Tyrone Cade v. State,
W11-33962-R(A) (Texas 265th District April 10, 2017)

37a-140a

H

Texas Court of Criminal Appeals decision, Cade v.
State, No. AP-76,883 (Tex. Crim. App. Feb. 25, 2015)

141a-241a

7a-11a

Appendix A

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-83,274-03

EX PARTE TYRONE CADE, Applicant

ON APPLICATION FOR WRIT OF HABEAS CORPUS
CAUSE NO. W11-33962-R(C) IN THE 265 TH DISTRICT COURT
DALLAS COUNTY
Per curiam.
ORDER
This is a subsequent application for a writ of habeas corpus filed pursuant to the
provisions of Texas Code of Criminal Procedure article 11.071, § 5.1
In August 2012, Applicant was convicted of the offense of capital murder for stabbing
his girlfriend and her teenaged daughter to death during the same criminal transaction or
pursuant to the same scheme or course of conduct.
1

See T EX. P ENAL C ODE A NN.

Unless we specify otherwise, all references in this order to “Articles” refer to the Texas
Code of Criminal Procedure.

1a

Cade - 2
§ 19.03(a)(7). The jury answered the special issues submitted under Article 37.071 and the
trial court, accordingly, set punishment at death. This Court affirmed Applicant’s conviction
on direct appeal, Cade v. State, No. AP-76,883 (Tex. Crim. App. Feb. 25, 2015) (not
designated for publication), and denied relief on his initial Article 11.071 application for writ
of habeas corpus, Ex parte Cade, No. WR-83,274-02 (Tex. Crim. App. Oct. 25, 2017) (not
designated for publication). We dismissed Applicant’s first subsequent application, filed in
the trial court while his initial writ was still pending there, as an abuse of the writ. Ex parte
Cade, No. WR-83,274-01 (Tex. Crim. App. Oct. 25, 2017). We received this, Applicant’s
second subsequent application for a writ of habeas corpus, on December 16, 2020.
Applicant presents twenty-two allegations in the instant subsequent application. In
Claim 1, Applicant alleges that the his Sixth and Fourteenth Amendment rights to a fair jury
trial and his Fourteenth Amendment right to equal protection were violated under Batson.2
In Claims 2, 4, 5, 6, 7, 10, 11, 13 and 20, Applicant contends that trial counsel rendered
ineffective assistance under Strickland3 because they: agreed to excuse veniremembers who
expressed very strong support for or opposition to capital punishment in their juror
questionnaires (Claim 2); raised an insanity defense instead of investigating and presenting
a meritorious defense to capital murder (Claim 4); elicited testimony during the trial’s guilt
phase that Applicant was a convicted felon (Claim 5); did not timely object to inadmissible

2

Batson v. Kentucky, 476 U.S. 79 (1986).

3

Strickland v. Washington, 466 U.S. 668 (1984).

2a

Cade - 3
and prejudicial victim impact evidence introduced during the guilt phase (Claims 6 and 7 4 );
did not develop and present evidence that Applicant is intellectually disabled (Claim 10); did
not adequately defend against a finding that Applicant would present a future danger
(Claim11); failed to develop and present evidence that Applicant presented no future danger
and to object to the State’s improper submissions (Claim 13); and conduct a reasonable
mitigation investigation (Claim 20).
In Claims 3, 8, 12, 14, 15, 16, and 19, Applicant asserts that the trial court violated his
constitutional rights by:

denying the defense’s challenges for cause to seventeen

veniremembers (Claim 3); denying the defense’s request for a jury instruction on the lesser
included offense of murder (Claim 8); excluding the defense’s expert testimony that
Applicant did not present a future danger (Claims 12 and 14); permitting Applicant’s parole
officer to testify that Applicant was manipulative and posed a high risk to reoffend (Claim
15); admitting evidence of crimes committed by other inmates (Claim 16); and overruling
the defense’s objection to misstatements of law which prevented the jury from considering
and giving effect to Applicant’s mitigating evidence (Claim 19).
In Claim 9, Applicant alleges that he is intellectually disabled and therefore the Eighth
Amendment prohibits his execution. In Claim 17, Applicant avers that the cumulative effect
of trial counsel’s and the trial court’s errors rendered the jury’s affirmative answer to the
4

The headings for Claims 6 and 7 are identical, but the arguments are distinct. Based on
Applicant’s arguments in Claim 7, we understand him to re-urge Claim 11 of his initial Article
11.071 application, in which he asserted that trial counsel were ineffective because they did not
object to the State’s allegedly improper guilt phase closing argument.

3a

Cade - 4
future dangerousness special issue unconstitutional. In Claim 18, Applicant asserts that the
evidence was insufficient to support the jury’s affirmative answer to the future dangerousness
special issue. In Claim 21, Applicant argues that his death sentence is invalid because the
future dangerousness special issue is unconstitutionally vague. In Claim 22, Applicant
alleges that Texas’s death penalty statute unconstitutionally limits the evidence that a jury can
consider as sufficiently mitigating for a life sentence.
We have reviewed the subsequent application and find that Applicant has failed to
satisfy the requirements of Article 11.071, § 5(a). Accordingly, we dismiss the subsequent
application as an abuse of the writ without considering the merits of the claims.
IT IS SO ORDERED THIS THE 31ST DAY OF MARCH, 2021.

Do Not Publish

4a

Appendix B

Case 3:17-cv-03396-G-BT Document 121 Filed 09/23/20

Page 1 of 2 PageID 38331

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

TYRONE CADE,
Petitioner,
VS.
BOBBY LUMPKIN, Director,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3:17-CV-3396-G-BT

ORDER
The petitioner Tyrone Cade (“Cade”) has filed a motion (docket entry 120)
asking this court to reconsider its Memorandum Opinion and Order issued August
18, 2020 (docket entry 119) which granted Cade’s motion to stay and hold this case
in abeyance to permit Cade to return to state court and exhaust state remedies.
In his motion for stay and abeyance and supporting briefs, Cade proposed to
present the state courts with some but not all of his new claims for federal habeas
relief, some but not all of the legal and factual theories underlying those claims, and,
most disturbing of all, some but not all of the evidence supporting his new claims.
Confronted with Cade’s proposal to attempt to create profound procedural problems,
the Magistrate Judge recommended that Cade be directed instead to fairly present
the state courts with all of Cade’s new claims, all of the factual and legal theories
supporting those claims, and all evidence supporting those claims. This court
5a

Case 3:17-cv-03396-G-BT Document 121 Filed 09/23/20

Page 2 of 2 PageID 38332

adopted the Magistrate Judge’s recommendation, in part, to hopefully avoid a
plethora of potential procedural problems once Cade returned to this court.
Nothing in Cade’s motion for reconsideration warrants such relief. In fact,
Cade’s certificate of conference contains a concise explanation, attributed to the
Texas Attorney General’s Office, as to precisely why Cade’s motion should be denied.
Accordingly, it is hereby ORDERED that all relief requested in Cade’s motion
for reconsideration, filed September 18, 2020 (docket entry 120), is DENIED.
SO ORDERED.

September 23, 2020.
________________________________
A. JOE FISH
Senior United States District Judge

6a

Appendix C

Case 3:17-cv-03396-G-BT Document 119 Filed 08/19/20

Page 1 of 5 PageID 38303

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

TYRONE CADE,
PETITIONER,
VS.
BOBBY LUMPKIN, Director,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3:17-CV-3396-G-BT

MEMORANDUM OPINION AND ORDER ACCEPTING FINDINGS,
CONCLUSIONS, AND RECOMMENDATION OF THE UNITED STATES
MAGISTRATE JUDGE
The matters before the court are (1) Petitioner’s motion for stay and abeyance,
filed December 18, 2019 (docket entry 100), (2) Respondent’s response to the motion
for stay and abeyance, filed January 8, 2020 (docket entry 104), (3) Petitioner’s reply
to Respondent’s response, filed January 22, 2020 (docket entry 107), (4) the Magistrate
Judge’s Findings, Conclusions, and Recommendation, filed July 2, 2020 (docket entry
117), and (5) Petitioner’s objections to the Magistrate Judge’s FCR, filed July 20, 2020
(docket entry 118).

For the reasons discussed below, this Court will accept the

Magistrate Judge’s Findings, Conclusions, and Recommendation that Petitioner’s motion
for stay and abeyance be granted and this cause be stayed to permit Petitioner’s return
to state court to exhaust state remedies on all claims Petitioner has included in his first
7a

Case 3:17-cv-03396-G-BT Document 119 Filed 08/19/20

Page 2 of 5 PageID 38304

amended federal habeas corpus petition (docket entry 79), as supplemented by
Petitioner’s subsequent pleadings, i.e., docket entries 102 & 114.
A District Court has discretion to stay its proceedings to permit a petitioner to
exhaust a claim in state court if it finds good cause for a petitioner’s failure to exhaust
a claim that is not plainly meritless and where the petitioner has not engaged in
intentionally dilatory litigation tactics. Rhines v. Weber, 544 U.S. 269, 277-78 (2005).
Petitioner requested a stay to allow him to return to state court and exhaust state habeas
remedies on five identified claims. The Magistrate Judge correctly concluded that the
Texas legal landscape surrounding Petitioner’s Atkins claim was sufficiently confusing and
ambiguous throughout the time frame that Petitioner litigated his initial state habeas
corpus proceeding as to warrant permitting Petitioner to return to the state courts to
litigate his Atkins claim now that the Supreme Court’s decisions in Moore v. Texas, 37 S.
Ct. 1039 (2017) (Moore I), and Moore v. Texas, 139 S. Ct. 666 (2019) (Moore II), have
clarified that legal landscape. In so finding, the Magistrate Judge implicitly concluded
Petitioner’s Atkins claim is not plainly without merit. Neither party appears to disagree
with the Magistrate Judge’s findings or conclusions in this regard.
The Magistrate Judge’s conclusions that Petitioner’s remaining claims might not
independently warrant a stay and abeyance in this cause are effectively rendered moot
by her recommendation that Petitioner be directed to exhaust available state remedies
on all of the claims Petitioner has asserted in his first amended petition for federal
habeas corpus relief. In so recommending, the Magistrate Judge effectively suggested a
8a

Case 3:17-cv-03396-G-BT Document 119 Filed 08/19/20

Page 3 of 5 PageID 38305

procedure under which all issues regarding whether any of Petitioner’s claims in his first
amended petition have previously been exhausted in the state courts will be rendered
moot. By permitting Petitioner an opportunity to exhaust available state remedies on
all of his claims for federal habeas corpus relief currently before this Court, the
Magistrate Judge has suggested a way to avoid the type of intentionally dilatory tactics
the Supreme Court abjured in Rhines. The Court will accept the Magistrate Judge’s
recommendation and direct Petitioner to exhaust available state remedies on all of the
claims he has presented to this Court in his latest operative pleading, as well as all
factual theories and all evidence supporting those claims. Petitioner’s objections to the
Magistrate Judge’s findings, conclusions, and recommendation will, therefore, be
overruled.
Under the AEDPA, the proper place for the factual development of a federal
habeas corpus petitioner’s federal constitutional claims is the state courts. Harrington
v. Richter, 562 U.S. 86, 103 (2011); Hernandez v. Johnson, 108 F.3d 554, 558 n.4 (5th
Cir. 1997).
It is hereby ORDERED that:
1. Petitioner’s objections to the Magistrate Judge’s findings, conclusions, and
recommendation, filed July 20, 2020 (docket entry 118), are OVERRULED.
2. The Magistrate Judge’s findings, conclusions, and recommendations, filed July
2, 2020 (docket entry 117), are ADOPTED as set forth below.
3. Petitioner’s motion for stay and abeyance, filed December 18, 2019 (docket
9a

Case 3:17-cv-03396-G-BT Document 119 Filed 08/19/20

Page 4 of 5 PageID 38306

entry 100), is GRANTED as set forth below.
4. These proceedings are STAYED while Petitioner pursues state habeas remedies
in accordance with the recommendation and this memorandum opinion and order as set
forth below.
5.

On or before sixty days from this date, Petitioner shall (a) file in the

appropriate state court his application for leave to file a second or subsequent state
habeas corpus application, (b) include in his second or subsequent state habeas corpus
application all of the claims that he wishes this federal court to consider in ruling on his
petition for federal habeas corpus relief (including all claims contained in Petitioner’s
first amended federal habeas corpus petition) and all of the factual allegations supporting
those same claims that he wishes to raise in this court, and (c) fairly present the state
court with all of the evidence supporting his claims for federal habeas corpus relief that
he wishes this court to consider in ruling on his claims for federal habeas corpus relief.
6. Unless Petitioner obtains the sought relief in state court, Petitioner shall return
to this Court within forty-five days after he has exhausted his state court remedies and
file a motion to reopen this case.
7. If relief is granted by the state court, the Respondent shall promptly notify this
Court and if such grant of relief causes the remaining claims contained in Petitioner’s
first amended federal habeas corpus petition to become moot, then these proceedings
will be dismissed.
8. If Petitioner fails to comply with this memorandum opinion and order, these
10a

Case 3:17-cv-03396-G-BT Document 119 Filed 08/19/20

Page 5 of 5 PageID 38307

proceedings will be dismissed.
9. The Clerk is directed to administratively close this case for statistical purposes
but nothing in this memorandum opinion and order shall be construed as a final
dismissal or disposition of this case.
10. This case shall be reopened upon proper motion filed in accordance with
the provisions of this memorandum opinion and order.
SO ORDERED.
August 19, 2020.
________________________________
A. JOE FISH
Senior United States District Judge

11a

Appendix D

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 1 of 16 PageID 38207

IN THE UNITED STATES DISTRICT COURT
FOR THE NOTHERN DISTRICT OF TEXAS
DALLAS DIVISION
TYRONE CADE,

§
§
§
§
§
§
§
§
§

Petitioner,
v.
LORIE DAVIS, Director,
Respondent.

Civil Action No. 3:17-cv-3396-G-BT

FINDINGS, CONCLUSIONS, AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Petitioner Tyrone Cade has filed a motion for stay and abeyance (ECF no.
100). For the following reasons, the Court should GRANT the motion.
Background
On March 27, 2011, Cade fatally stabbed his girlfriend and her teenage
daughter. He later turned himself into law enforcement authorities and gave a
videotaped confession. Cade v. State, AP-76,883, 2015 WL 822421, *1-*2 (Tex.
Crim. App. Feb. 25, 2015). At the guilt-innocence phase of his trial, Cade’s trial
counsel asserted an insanity defense under Section 8.01 of the Texas Penal Code,
which the jury rejected. The jury convicted Cade of capital murder; it also
subsequently

answered

the

Texas

capital

sentencing

scheme’s

future

dangerousness special issue affirmatively and the mitigation special issue
negatively. The Texas Court of Criminal Appeals (TCCA) affirmed Cade’s
conviction and sentence. Cade v. State, AP-76,883, 2015 WL 822421, *41. Cade

12a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 2 of 16 PageID 38208

filed an application for state habeas corpus relief which the TCCA denied. Ex parte
Cade, WR-83,274-01, 2017 WL 4803802 (Tex. Crim. App. Oct. 25, 2017).
Thereafter, on March 28, 2019, Cade filed his first amended federal habeas
corpus petition in this court (ECF no. 79), asserting twenty claims for relief.
Respondent filed her answer on July 26, 2019 (ECF no. 82). Cade filed his reply
brief November 12, 2019 (ECF no. 98). Respondent was granted leave to file a surreply on January 23, 2020 (ECF no. 110). Cade filed his final reply brief on the
merits on March 23, 2020 (ECF no. 114).
Now, Cade requests a stay and abeyance to permit him to return to state
court and exhaust state habeas corpus remedies on five of his claims in his first
amended petition: claim 4 (in which he argues that his trial counsel rendered
ineffective assistance by failing to raise a mental health defense at the guiltinnocence phase of trial other than that of insanity); claim 9 (in which he is exempt
from execution because he is intellectually disabled, i.e., his Atkins claim); claim
11 (ineffective assistance based upon his trial counsel’s failure to investigate and
present available mitigating evidence showing his lack of propensity for future
dangerousness); claim 15 (cumulative error); and claim 18 (ineffective assistance
arising from his trial counsel’s failure to investigate and present available
mitigating evidence).
Legal Standards
The Supreme Court has made it clear that a federal habeas court should
defer action on a mixed petition such as Cade’s first amended petition until the
2
13a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 3 of 16 PageID 38209

appropriate state court has had the first opportunity to rule on the merits of an
unexhausted claim. Rhines v. Weber, 544 U.S. 269, 273-74 (2005). A stay is the
appropriate means of fulfilling the principles of comity underlying the exhaustion
doctrine. Rhines, 544 U.S. at 276. A stay and abeyance is only appropriate when
the federal habeas court determines there was good cause for the petitioner’s
failure to exhaust his claims first in state court. Id., at 277. Even if good cause exists
for the failure to exhaust, a stay is inappropriate when the unexhausted claim is
plainly meritless. Id.
Exhausted Claims
Cade seeks leave to return to state court to re-litigate two claims, i.e., claim
4 and claim 18, which he fully litigated and on which he obtained rulings on the
merits from the Texas Court of Criminal Appeals during his first state habeas
corpus proceeding. Insofar as he argues that the Supreme Court’s holdings in
Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. 413 (2013),
allow him to re-litigate with new evidence these two claims, he misconstrues the
holdings in those two Supreme Court opinions. The Supreme Court’s holding in
Martinez v. Ryan furnishes a narrow avenue for circumventing a procedural
default. It requires a showing that the performance of state habeas counsel was so
deficient as to completely preclude state court merits review of a meritorious claim
of ineffective assistance by trial counsel, thus permitting a federal habeas court to
undertake a merits review of the otherwise procedurally defaulted complaint of
ineffective assistance by state trial counsel. See In re Edwards, 865 F.3d 197, 2073

14a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 4 of 16 PageID 38210

08 (5th Cir. 2017) (To show cause for procedural default under Martinez and
Trevino, “the petitioner must show (1) that his claim of ineffective assistance of
counsel at trial is ‘substantial’ (i.e., ‘has some merit’); and (2) that his habeas
counsel was ineffective for failing to present those claims in his first state habeas
application.” (quoting Beatty v. Stephens, 759 F.3d 455, 465-66 (5th Cir. 2014));
Prystash v. Davis, 854 F.3d 830, 836 (5th Cir. 2017) (holding the Supreme Court’s
rulings in Martinez and Trevino created a narrow exception to the general rules of
procedural default that applies only to a claim of ineffective assistance by state trial
counsel).
Cade was not precluded by his state habeas counsel’s allegedly ineffective
assistance from fairly presenting and obtaining a ruling on the merits from the
TCCA of either of these ineffective assistance claims during his state habeas corpus
proceeding. On the contrary, the TCCA rejected both claims on the merits. Thus,
Cade may not rely on Martinez or Trevino to justify a stay in this cause to allow
Cade to return to state court and attempt to re-litigate those two claims using new
factual allegations and new evidence. Likewise, Cade may not re-litigate those
claims in this court using new factual allegations and new evidence. Cullen v.
Pinholster, 563 U.S. 170, 181-82 (2011) (“[R]eview under § 2254(d)(1) is limited to
the record that was before the state court that adjudicated the claim on the merits.
Section 2254(d)(1) refers, in the past tense, to a state-court adjudication that
‘resulted in’ a decision that was contrary to, or ‘involved’ an unreasonable
application of, established law. This backward-looking language requires an
4

15a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 5 of 16 PageID 38211

examination of the state-court decision at the time it was made. It follows that the
record under review is limited to the record in existence at that same time i.e., the
record before the state court.”).
Thus, Cade is not entitled to a federal evidentiary hearing on any of his
claims which were rejected on the merits by the state courts, either on direct appeal
or during his state habeas corpus proceeding. See Halprin v. Davis, 911 F.3d 247,
255 (5th Cir. 2018) (“If a claim has been adjudicated on the merits by a state court,
a federal habeas petitioner must overcome the limitation of § 2254(d)(1) on the
record that was before that state court.” (quoting Pinholster, 563 U.S. at 185)), cert.
denied, 140 S. Ct. 167 (2019). He is not entitled to a stay of this proceeding so that
he can return to state court and seek to re-litigate the same claims with new
evidence.
Likewise, Cade’s complaints of ineffective assistance by his state habeas
counsel during his first state habeas corpus proceeding do not furnish an
independent basis for federal habeas corpus relief. Infirmities in state habeas
corpus proceedings do not give rise to a basis for federal habeas relief. See, e.g.,
Stevens v. Epps, 618 F.3d 489, 502 (5th Cir. 2010) (allegedly inadequate funding
and staffing of the Mississippi Office of Capital Post-Conviction Counsel); Haynes
v. Quarterman, 526 F.3d 189, 195 (5th Cir. 2008) (alleged ineffective assistance
by initial state habeas counsel); 28 U.S.C. § 2254(i). Cade is not entitled to a stay
and abeyance of this cause so that he can return to state court and seek to re-litigate
claims on which he has already obtained a ruling on the merits.
5

16a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 6 of 16 PageID 38212

Intellectual Disability Claim 1
Cade also seeks leave to return to state court to litigate a new Atkins claim
(claim 9). During his capital murder trial, Cade presented testimony from several
different mental health experts. None suggested Cade was intellectually disabled.
In his first amended petition, Cade admits that he is a high school graduate who
briefly attended community college but insists his academic deficits qualify him as
intellectually disabled. First. Am. Pet. (ECF no. 79) at 82-88. At no point in his first
amended petition, however, does Cade allege any specific facts showing that any of
the mental health professionals who have evaluated him has ever diagnosed Cade
as intellectually disabled.
The Supreme Court’s case law addressing intellectual disability does not
provide a uniform definition for the condition. In Atkins v. Virginia, 536 U.S. 304
(2002), the United States Supreme Court concluded the execution of “mentally
retarded” persons failed to fulfill either of the two justifications for capital
punishment, i.e., retribution and deterrence, and held the Eighth Amendment

While the parties’ pleadings in both the state habeas court and this court
occasionally employ the terms “mental retardation” and “mentally retarded,” the
undersigned uses the terms “intellectual disability” and “intellectually disabled.”
See In re Cathey, 857 F.3d 221, 223 n.1 (5th Cir. 2017) (“The term ‘intellectual
disability’ has replaced ‘mental retardation.’” (citing Brumfield v. Cain, 576 U.S.
305, ___ n.1, 135 S. Ct. 2269, 2274 n.1 (2015)); see also Hall v. Florida, 572 U.S.
701, 704-05 (2014) (“This change in terminology is approved and used in the latest
edition of the Diagnostic and Statistical Manual of Mental Disorders, one of the
basic texts used by psychiatrists and other experts, the manual is often referred to
by its initials ‘DSM,’ followed by its edition numbers, e.g., ‘DSM-5.’”).

1

6

17a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 7 of 16 PageID 38213

forbids the execution of mentally retarded persons. Atkins, 536 U.S. at 318-21. The
Supreme Court cited two clinical definitions of “mental retardation” with approval:
The American Association on Mental retardation (AAMR) defines
mental retardation as follows: “Mental retardation refers to
substantial limitations in present functioning. It is characterized by
significantly
subaverage
intellectual
functioning,
existing
concurrently with related limitations in two or more of the following
applicable adaptive skill areas: communication, self-care, home
living, social skills, community use, self-direction, health and safety,
functional academics, leisure and work. Mental retardation manifests
before age 18.” Mental Retardation, definition, Classification, and
Systems of Supports 5 (9th ed. 1992).
[and]
The American Psychiatric Association’s definition is similar. “The
essential feature of Mental Retardation is significantly subaverage
general intellectual functioning (Criterion A) that is accompanied by
significant limitations in adaptive functioning in at least two of the
following skill areas: communication, self-care, home living,
social/interpersonal skills, use of community resources, selfdirection, functional academic skills, work, leisure, health and safety
(Criterion B). The onset must occur before age 18 years (Criterion C).
Mental Retardation has many different etiologies and may be seen as
a final common pathway of various pathological processes that affect
the functioning of the central nervous system.” Diagnostic and
Statistical Manual of Mental Disorders 41 (4th ed. 2000). “Mild
mental retardation is typically used to describe people with an IQ of
50-55 to approximately 70. Id., at 42-43.
Id., at 309 n.3. But, ultimately, the Court left to the States “the task of developing
appropriate ways to enforce the constitutional restriction upon [their] execution of
sentences.” Id., at 317; see also Bobby v. Bies, 556 U.S. 825, 831 (2009) (noting
Atkins did not provide definitive procedural or substantive guides for determining
when a person who claims intellectual disability will be so impaired as to fall within
Atkins’ limits).
7

18a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 8 of 16 PageID 38214

Nonetheless, the Supreme Court recognizes that “an IQ between 70 and 75
or lower” is “typically considered the cutoff IQ score for the intellectual function
prong of the mental retardation definition.” Brumfield v. Cain, 576 U.S. 305, 315,
(2015) (quoting Atkins, 536 U.S. at 309 n.5). Thus, an IQ score of 75 is “squarely
in the range of potential intellectual disability.” Brumfield, 576 U.S. at 315.
Regarding the first prong of the Atkins analysis, i.e., establishing
significantly subaverage intellectual functioning, the Supreme Court has held that,
because of the imprecision inherent in IQ testing, 2 a court must consider the
standard error of measurement (SEM) when assessing intellectual disability:

In Hall v. Florida, 572 U.S. 701 (2014), the Supreme Court explained in some
detail the nature of the imprecision inherent in IQ testing as follows:
2

The professionals who design, administer, and interpret IQ tests have
agreed, for years now, that IQ test scores should be read not as a single
fixed number but as a range. Each IQ test has a “standard error of
measurement,” often referred to by the abbreviation “SEM.” A test’s
SEM is a statistical fact, a reflection of the inherent imprecision of the
test itself. An individual’s IQ test score on any given exam may
fluctuate for a variety of reasons. These include the test taker’s health;
practice from earlier tests; the environment or location of the test; the
examiner’s demeanor; the subjective judgment involved in scoring
certain questions on the exam; and simple lucky guessing. . . . The
SEM reflects the reality that an individual’s intellectual functioning
cannot be reduced to a single numerical score. For the purposes of
most IQ tests, the SEM means that an individual’s score is best
understood as a range of scores on either side of the recorded score.
The SEM allows clinicians to calculate a range within which one may
say an individual’s true IQ score lies. . . . Even when a person has taken
multiple tests, each separate score must be assessed using the SEM,
and the analysis of multiple IQ scores jointly is a complicated
endeavor. In addition, because the test itself may be flawed, or
administered in a consistently flawed manner, multiple examinations
8

19a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 9 of 16 PageID 38215

The legal determination of intellectual disability is distinct from a
medical diagnosis, but it is informed by the medical community’s
diagnostic framework. Atkins itself points to the diagnostic criteria
employed by psychiatric professionals. And the professional
community’s teachings are of particular help in this case, where no
alternative definition of intellectual disability is presented and where
this Court and the States have placed substantial reliance on the
expertise of the medical profession.
By failing to take into account the SEM and setting a strict cutoff at
70, Florida “goes against the unanimous professional consensus.”
APA Brief 15. Neither Florida nor its amici point to a single medical
professional who supports this cutoff. The DSM–5 repudiates it: “IQ
test scores are approximations of conceptual functioning but may be
insufficient to assess reasoning in real-life situations and mastery of
practical tasks.” DSM–5, at 37. This statement well captures the
Court's independent assessment that an individual with an IQ test
score “between 70 and 75 or lower,” Atkins, supra, at 309, n. 5, 122
S.Ct. 2242, may show intellectual disability by presenting additional
evidence regarding difficulties in adaptive functioning.
Hall v. Florida, 572 U.S. 701, 721-22 (2014).
In Moore v. Texas, 581 U.S. ___, ___, 137 S. Ct. 1039, 1048-53 (2017)
(Moore I), the Supreme Court further restricted States’ ability to circumscribe the
legal definition of “intellectual disability,” holding (1) a State’s determination
under Atkins must be guided by current medical standards 3 and (2) States are not

may result in repeated similar scores, so that even a consistent score
is not conclusive evidence of intellectual functioning.
Hall, 572 U.S. at 712-14 (internal citations and quotations omitted).
Moore I, 137 S. Ct. at 1048-49 (“Although Atkins and Hall left to the States “the
task of developing appropriate ways to enforce” the restriction on executing the
intellectually disabled, States’ discretion, . . ., is not “unfettered.” Even if “the views
of medical experts” do not “dictate” a court’s intellectual-disability determination,
. . ., the determination must be “informed by the medical community’s diagnostic

3

9

20a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 10 of 16 PageID 38216

free to adopt criteria unsupported by medical science to evaluate a defendant’s
alleged subaverage intellectual functioning or deficits in adaptive skills. 4 More
specifically, the Supreme Court held the TCCA erred in applying a set of nonclinical criteria known as the Briseno factors in evaluating a defendant’s claim of
intellectual disability because (1) some of the Briseno factors had implicitly been
rejected by the medical community (in part because they were based on outdated
stereotypes) and (2) all the Briseno factors were little more than lay perceptions of
intellectual disability untethered to any clinical medical standard. Moore I, 137 S.
Ct. at 1050-53. Two years later, in Moore v. Texas, 139 S. Ct. 666, 668-72 (2019)
(Moore II), the Supreme Court again struck down as a violation of the Eighth
framework.” . . . Florida, . . ., had violated the Eighth Amendment by “disregarding
established medical practice” [and] . . . parted ways with practice and trends in
other States. Hall indicated that being informed by the medical community does
not demand adherence to everything stated in the latest medical guide. But neither
does our precedent license disregard of current medical standards.”) (citations
omitted).
For example, the Supreme Court pointed out the Texas appellate court focused
on Moore’s perceived adaptive strengths in certain areas when the current clinical
approach called for identification of deficits in adaptive skills. Moore I, 137 S. Ct.
at 1050. The Texas appellate court also pointed out Moore’s improved behavior in
prison; whereas the Supreme Court noted clinicians caution against reliance on
adaptive strengths developed in a controlled setting. Id. The Texas appellate court
attempted to explain away Moore’s poor academic performance by pointing to
traumatic childhood abuse and suffering; the Supreme Court pointed out the
medical community employed such traumatic experiences as “risk factors”
sufficient to explore the prospect of intellectual disability. Id., at 1051. The Texas
appellate court required Moore to show that his adaptive deficits were unrelated
to his “personality disorder”; the Supreme Court pointed out mental health
professionals have long recognized that intellectual disability may be co-morbid
with a wide variety of personality disorders, attention-deficit disorder, depression,
and even bi-polar disorder. Id.

4

10

21a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 11 of 16 PageID 38217

Amendment a new TCCA determination that Moore was intellectually disabled,
finding the TCCA had committed many of the same analytical errors identified in
Moore I.
Thus, the Supreme Court’s case law addressing intellectual disability does
not employ a uniform definition of the condition. Instead, the Supreme Court
recognizes the distinction between the medical and legal definitions of intellectual
disability and directs the States to craft their own approaches to the issue. And the
Supreme Court has reversed state courts for straying too far from current, best
medical practices. The result is a fluid legal landscape in which state courts and
legal practitioners have operated since Atkins.
What is clear at this juncture is that whether Cade is intellectually disabled
is a question of fact. Matamoros v. Stephens, 783 F.3d 212, 216 (5th Cir. 2015);
Maldonado v. Thaler, 625 F.3d 229, 236 (5th Cir. 2010). The Supreme Court and
Fifth Circuit have both made clear that, under the AEDPA, the proper place for
development of the factual bases for federal habeas claims is the state courts. See
Harrington v. Richter, 562 U.S. 86, 103 (2011) (“Section 2254(d) thus
complements the exhaustion requirement and the doctrine of procedural bar to
ensure that state proceedings are the central process, not just a preliminary step
for a later federal habeas proceeding.”); Hernandez v. Johnson, 108 F.3d 554, 558
n.4 (5th Cir. 1997) (holding AEDPA clearly places the burden on a federal habeas
petitioner to raise and litigate as fully as possible his federal claims in state court).

11

22a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 12 of 16 PageID 38218

Cade alleges that he has tested in the 76-80 range on standardized IQ tests
and his background demonstrates multiple deficits in adaptive behavior.
Considering the SEM of plus or minus five points for most IQ tests, and the
possible application of the “Flynn effect,” which neither party has yet addressed in
a meaningful manner, Cade’s allegations put him at least within the range of a
possible diagnosis of intellectual disability. Cade argues persuasively that he
should be permitted to return to state court to argue and present evidence showing
that he is intellectually disabled - a contention which if proven, would render moot
many of the other claims Cade has presented to this federal habeas court in his first
amended petition. Cade also correctly points out that the TCCA’s persistent
reliance upon the Briseno factors, see Ex parte Briseno, 135 S.W.3d 1, 8 (Tex. Crim.
App. 2004), created analytical confusion within the Texas appellate courts which
lasted beyond the Supreme Court’s opinion in Moore I.
Before this court appoints mental health experts to explore whether Cade is
intellectually disabled and expends scarce judicial resources to hold an evidentiary
hearing and determine whether in fact Cade is intellectually disabled, the state
courts should be permitted an opportunity to address that critical factual issue. To
do otherwise would run counter to the principles of federalism and comity that
form the basis of the exhaustion doctrine and that underlie the expressions of
congressional intent found within the AEDPA.
The legislative history of the AEDPA indicates that it was intended as a
limitation upon the scope of federal habeas review. One of the principal purposes
12

23a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 13 of 16 PageID 38219

of the AEDPA was to reduce delays in the execution of state and federal criminal
sentences, especially capital sentences. Ryan v. Gonzales, 568 U.S. 57, 76 (2013);
Schriro v. Landrigan, 550 U.S. 465, 475 (2007); Rhines, 544 U.S. at 276. Another
purpose of the AEDPA was to encourage litigants to pursue claims in state court
prior to seeking federal collateral review. Duncan v. Walker, 533 U.S. 167, 181
(2001); see also Hernandez, 108 F.3d at 558 n.4 (the AEDPA imposes the burden
on a petitioner to litigate to the maximum extent possible, including fairly
presenting all available evidence supporting, his claims in state court). The AEDPA
was also intended to prevent piecemeal litigation and gamesmanship. Magwood
v. Patterson, 561 U.S. 320, 334 (2010). Thus, under the AEDPA, federal habeas
review of claims is limited to the record that was before the state court that
adjudicated the prisoner’s claims on the merits. Pinholster, 563 U.S. at 182. “The
AEDPA statute of limitation promotes judicial efficiency and conservation of
judicial resources, safeguards the accuracy of state court judgments by requiring
resolution of constitutional questions while the record is fresh, and lends finality
to state court judgments within a reasonable time.” Day v. McDonough, 547 U.S.
198, 205-06 (2006). Collectively, the provisions of the AEDPA further the
principals of comity, finality, and federalism. Panetti v. Quarterman, 551 U.S. 930,
945 (2007); Miller-El v. Cockrell, 537 U.S. 322, 337 (2003).
Cade’s request for a stay and abeyance to permit him to return to state court
and to exhaust available state habeas corpus remedies on his currently
unexhausted intellectual disability claim in a post-Moore context should be
13

24a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 14 of 16 PageID 38220

granted. The inconsistency found within the Texas appellate courts and among
Texas legal practitioners by the TCCA’s reliance upon the Briseno factors justifies
permitting Cade an opportunity to fully and fairly litigate his intellectual disability
claim in the state courts. Cade’s state trial counsel, state appellate counsel, and
state habeas counsel confronted a State legal landscape influenced by evolving
Supreme Court precedent that attempted to define the term intellectual disability
and the TCCA’s Briseno factors. Counsels’ decision to forego an attempt to assert
an Atkins claim may have been based upon their understanding of the manner in
which the TCCA applied the Briseno factors to deny intellectual disability claims.
Under such circumstances, Cade should be permitted to return to state court and
litigate his intellectual disability claim, which if successful, will render moot many
of his claims for federal habeas corpus relief, especially those challenging the
legitimacy of his death sentence.
Because Cade is entitled to a stay and abeyance to permit state court
consideration of his intellectual disability claim, he should be permitted to seek
state court review on any and all of the claims he has included in his first amended
petition for federal habeas corpus relief. A stay should be issued consistent with
the holding in Rhines. Cade will have an opportunity in his second or subsequent
state habeas corpus proceeding to fairly present the state courts with all of the
claims that he has included in his first amended federal habeas corpus petition, all
the factual allegations supporting those claims, and (through properly

14

25a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 15 of 16 PageID 38221

authenticated documents, affidavits, and sworn declarations) all of the evidence he
wishes to present in support of those claims.
Avoiding Unnecessary Delay
To avoid unnecessary delay in the disposition of the forthcoming state
habeas corpus proceeding, Cade should be directed to file his application for leave
to file a second or subsequent state habeas corpus application in the appropriate
state court in an expeditious manner.
Recommendation
Cade’s motion for stay and abeyance (ECF No. 100) should be GRANTED;
and Cade should be directed within 30 days to (1) file in the appropriate state court
his application for leave to file a second or subsequent state habeas corpus
application, (2) include in his second or subsequent state habeas corpus
application (a) all of the claims that he wishes this federal court to consider in
ruling on his petition for federal habeas corpus relief and (b) all of the factual
allegations supporting those same claims that he wishes to raise in this court, and
(3) present the state court with all of the evidence supporting his claims for federal
habeas corpus relief that he wishes this court to consider in ruling on his claims for
federal habeas corpus relief.
SIGNED July 2, 2020.
___________________________
REBECCA RUTHERFORD
UNITED STATES MAGISTRATE JUDGE

15

26a

Case 3:17-cv-03396-G-BT Document 117 Filed 07/02/20

Page 16 of 16 PageID 38222

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO OBJECT
A copy of this report and recommendation shall be served on all parties in
the manner provided by law. Any party who objects to any part of this report and
recommendation must file specific written objections within 14 days after being
served with a copy. See 28 U.S.C. § 636(b)(1); FED. R. CIV. P. 72(b). In order to be
specific, an objection must identify the specific finding or recommendation to
which objection is made, state the basis for the objection, and specify the place in
the magistrate judge's report and recommendation where the disputed
determination is found. An objection that merely incorporates by reference or
refers to the briefing before the magistrate judge is not specific. Failure to file
specific written objections will bar the aggrieved party from appealing the factual
findings and legal conclusions of the magistrate judge that are accepted or adopted
by the district court, except upon grounds of plain error. See Douglass v. United
Services Automobile Ass'n, 79 F.3d 1415, 1417 (5th Cir. 1996).

16

27a

Appendix E

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
WR-83,274-01

EX PARTE TYRONE CADE

ON APPLICATION FOR WRIT OF HABEAS CORPUS
CAUSE NO. F11-33962-R IN THE 265 TH DISTRICT COURT
DALLAS COUNTY

Per curiam.
ORDER
This is a subsequent application for writ of habeas corpus filed pursuant to the
provisions of Texas Code of Criminal Procedure Article 11.071, § 5.
On August 29, 2012, Applicant was convicted of the offense of capital murder. See
T EX. P ENAL C ODE A NN. § 19.03. The jury answered the special issues submitted under Texas
Code of Criminal Procedure Article 37.071, and the trial court, accordingly, set punishment
at death. This Court affirmed Applicant’s conviction and sentence on direct appeal. Cade

28a

Cade - 2
v. State, No. AP-76,883 (Tex. Crim. App. Feb. 25, 2015) (not designated for publication).
Applicant’s initial post-conviction application for writ of habeas corpus is currently pending
in the convicting court. See T EX. C ODE C RIM. P ROC. A NN. Art. 11.071. Applicant’s instant
post-conviction application for writ of habeas corpus was received in this Court on May 13,
2015.
Applicant presents one allegation in the instant application. We have reviewed the
application and find that Applicant has failed to satisfy the requirements of Article 11.071,
§ 5(a). Accordingly, we dismiss the application as an abuse of the writ without considering
the merits of the claim.
IT IS SO ORDERED THIS THE 25 TH DAY OF OCTOBER, 2017.
Do Not Publish

29a

Appendix F

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-83,274-02

EX PARTE TYRONE CADE, Applicant

ON APPLICATION FOR WRIT OF HABEAS CORPUS IN CAUSE
NO. F11-33962-R IN THE 265TH JUDICIAL DISTRICT COURT
DALLAS COUNTY
Per curiam. A LCALA, J., concurred.
ORDER
This is an initial post-conviction application for writ of habeas corpus filed
pursuant to the provisions of Texas Code of Criminal Procedure Article 11.071.
In August 2012, a jury convicted applicant of capital murder for stabbing his
girlfriend and her teenaged daughter to death during the same criminal transaction or
pursuant to the same scheme or course of conduct. See T EX. P ENAL C ODE § 19.03(a)(7).
The jury answered the special issues submitted under Article 37.071 of the Texas Code of
Criminal Procedure, and the trial court, accordingly, set punishment at death. This Court

30a

Cade 2
affirmed applicant’s conviction and sentence on direct appeal. Cade v. State, No. AP76,883, slip op. at 3 5 (Tex. Crim. App. Feb. 25, 2015) (not designated for publication).
The record shows that applicant had been romantically involved with Mischell
Fuller for many years and that they had also lived together for several years preceding the
offense. Fuller’s seventeen-year-old daughter, Desaree Hoskins, lived with them.
However, by the time of the killings, applicant and Fuller’s relationship had
deteriorated. Factors contributing to this deterioration included: applicant’s status as a
registered sex offender following his 1999 conviction for aggravated sexual assault;
applicant’s inability to work due to a back injury that caused him chronic pain; and the
rekindling of Fuller’s relationship with Karlton Hoskins, her ex-husband and Desaree’s
father. Although they still slept in the same bed, applicant and Fuller had not been
sexually intimate for several months and Fuller had repeatedly asked applicant to move
out.
Fuller and Desaree died sometime during the early hours of March 27, 2011. Later
that day, applicant turned himself in by calling 9-1-1 from a pay phone in a police station
lobby. After being advised of his constitutional rights, applicant gave a detailed, videorecorded confession.
According to [applicant’s] statements, on the evening of March 26,
2011, he hid a recording device near Fuller’s side of the bed, then went to a
strip club with his cousin. After a few hours in the club, followed by an
unsuccessful search for prostitutes, [applicant] returned to Fuller’s house
around 2:00 a.m. The recording device had captured a Skype conversation
between Fuller and Karlton, and [applicant] listened to it when he returned

31a

Cade 3
home. Roughly two hours into the recording, [applicant] heard the
conversation become sexual in nature.
Soon thereafter, [applicant] got into bed with Fuller, who fell asleep but
was later awakened by [applicant]’s tossing and turning in bed. When Fuller
told [applicant] to lie down and go to sleep, [applicant] showed Fuller a
kitchen knife. Fuller began screaming when she saw the knife, and [applicant]
repeatedly stabbed her. Fuller’s screams woke Desaree, who ran into the
bedroom to help her mother. [Applicant] stabbed Desaree several times and
then returned to Fuller. When Desaree started to get up, [applicant] stabbed her
again multiple times as she screamed and attempted to crawl away from him.
When Desaree stopped screaming and moving, [applicant] walked back to
Fuller, who was still alive and conscious. [Applicant] vaginally and anally
raped Fuller, claiming that he ejaculated “[i]n her, on her, everywhere”
because she made him feel like a sex offender. [Applicant] believed Fuller
lived for thirty to forty minutes after he first stabbed her, and he asserted that
he sexually assaulted her for twenty to thirty minutes of that time. While he
was sexually assaulting Fuller, [applicant] heard Desaree speaking. He
believed that Desaree survived longer than Fuller.
Id. at 3 4 (internal footnote omitted).
As we stated in our direct appeal opinion, the investigation additionally produced
the following evidence.
Officers found Fuller’s body in the master bedroom, face down and
naked below the waist. Fuller’s buttocks and vaginal area were propped up
on several pillows; a bottle of lubricant lay next to her body. Desaree’s body
was in the hallway, immediately outside the bedroom. In a bathroom,
officers found a bloody knife and notebook containing [applicant]’s
handwritten notes. [Applicant] wrote that Fuller had “kicked [him] to the
curb” when she began trying to mend the relationship between Karlton and
her children. [Applicant] also wrote that, because he could not live without
Fuller, he took Fuller from himself and “from . . . anyone else.” Although
he expressed remorse for the killings, [applicant] also frequently deflected
responsibility away from himself, writing, for example, “[Fuller] used to
treat me so good. Not like a sex offender”; “I’m truly sorry, she drove me
crazy trying to fix things with her kids and the father”; “I feel bad for so
many people, especially who knew . . . [Fuller]. All I can say is she had a

32a

Cade 4
bad side . . . . It wasn’t always sunshine”; and “Thank Karlton Hoskins for
this one.”
The medical examiner, Jill Urban, M.D., testified that Fuller died
from being stabbed twenty-eight times. Urban found defensive wounds on
Fuller’s hands and wrists. Several wounds to Fuller’s face, neck, and chest
area were between four and five inches deep. Desaree’s death resulted from
thirty-nine stab wounds, many of which were also between four and five
inches deep. Urban testified that the perpetrator used a great deal of force in
inflicting Desaree’s injuries, noting that the wounds penetrated her bones.
Id. at 4 5 (internal footnotes omitted).
Applicant presented an insanity defense at trial. Applicant premised this defense
on the theory that he had entered a state of “abandonment rage” at the time of the offense
due to his personal history and the various stressors that he had then been experiencing.
The jury nonetheless found applicant guilty of capital murder as alleged in the indictment.
After considering the punishment phase evidence presented by both parties, the jury
answered “yes” to the future-dangerousness special issue and “no” to the mitigation
special issue. See T EX. C ODE. C RIM. P ROC. art. 37.071, §§ 2(b)(1), (e)(1).
In his application, applicant presents sixteen claims for relief in which he
challenges the validity of his judgment and sentence. The trial court held a live
evidentiary hearing. The trial court subsequently entered findings of fact and conclusions
of law and recommended that the relief sought be denied.
We have reviewed the record regarding applicant’s allegations. Claim 4, in which
applicant alleges that his due process right to a fair trial was violated when the trial court
excluded the testimony of Dr. Mark Vigen and Dr. Jonathan Sorensen from the

33a

Cade 5
punishment phase, is procedurally barred because this claim was raised and rejected on
direct appeal. See Ex parte Acosta, 672 S.W.2d 470, 472 (Tex. Crim. App. 1984) (stating
that claims that are raised and rejected on direct appeal are generally not cognizable in a
writ of habeas corpus). Claims 13, 15, and 16, in which applicant raises constitutional
challenges to Texas’s capital sentencing scheme, are procedurally barred for the same
reason. See id. Claim 14, in which applicant raises another constitutional challenge to
Texas’s capital sentencing scheme, is procedurally barred because habeas is not a
substitute for matters which should have been raised on direct appeal. See Ex parte
Nelson, 137 S.W.3d 666, 667 (Tex. Crim. App. 2004) (“It is ‘well-settled that the writ of
habeas corpus should not be used to litigate matters which should have been raised on
direct appeal.’”).
In Claims 1, 2, 3, 5, 6, 7, 8, 9, 10, 11, and 12, applicant alleges that his trial
counsel were constitutionally ineffective for: presenting an objectively unreasonable
insanity defense (Claim 1); failing to investigate and present mitigating evidence (Claim
2); failing to present a social historian to explain the impact of applicant’s social history
(Claim 3); not presenting the testimony of Dr. Antoinette McGarrahan at the punishment
phase of trial (Claim 5); failing to adequately voir dire prospective juror Nily regarding
the insanity defense (Claim 6); failing to request the removal of Juror Brown (Claim 7);
eliciting testimony during the guilt-innocence phase that applicant was a convicted felon
(Claim 8); failing to preserve their pretrial objection to the admission of evidence, at the

34a

Cade 6
guilt-innocence phase, that applicant was a registered sex offender (Claim 9); failing to
timely object to victim-impact evidence offered at the guilt-innocence phase (Claim 10);
failing to object to the State’s improper guilt-innocence phase closing argument (Claim
11); and depriving applicant of a full review of the record of his trial (Claim 12).
However, applicant fails to meet his burden under Strickland v. Washington, 466 U.S. 668
(1984), to show by a preponderance of the evidence that his counsel’s representation fell
below an objective standard of reasonableness and that there was a reasonable probability
that the result of the proceedings would have been different but for counsel’s deficient
performance. See Ex parte Overton, 444 S.W.3d 632, 640 (Tex. Crim. App. 2014) (citing
Strickland, 466 U.S. at 688).
Turning to the trial court’s findings and conclusions, we do not adopt factual
findings numbers 476 through 479, which concern applicant’s Claim 11. See Ex parte
Reed, 271 S.W.3d 698, 727 (Tex. Crim. App. 2008).
We also do not adopt factual findings numbers 548 through 553, which concern
testimony that Dr. Seth Silverman gave at the evidentiary hearing on applicant’s habeas
claims. See id. We further do not adopt the paragraph which immediately precedes
factual finding number 548. That paragraph reads:
During the writ hearing on this application, [a]pplicant presented the
testimony of [a] psychiatrist, Dr. Seth Silverman. Dr. Silverman’s
testimony does not appear to pertain to any of the sixteen grounds for relief
presented in the application for habeas relief. The Court makes the
following findings and conclusions to address his testimony and any
potential claim related to it.

35a

Cade 7
See id. Based upon our independent review of the record and consistent with our role as
the ultimate factfinder in habeas corpus proceedings, we instead make our own finding, as
follows:
At the evidentiary hearing, applicant presented the testimony of Dr.
Seth Silverman, a psychiatrist. The Court makes the following findings and
conclusions regarding Dr. Silverman’s testimony.
See id.
We otherwise adopt the trial court’s findings and conclusions. Based upon the trial
court’s findings and conclusions that we have adopted, our own review of the record, and
our independent findings and conclusions, we deny relief.
IT IS SO ORDERED THIS THE 25TH DAY OF OCTOBER, 2017.
Do Not Publish

36a

Appendix G

37a

38a

39a

40a

41a

42a

43a

44a

45a

46a

47a

48a

49a

50a

51a

52a

53a

54a

55a

56a

57a

58a

59a

60a

61a

62a

63a

64a

65a

66a

67a

68a

69a

70a

71a

72a

73a

74a

75a

76a

77a

78a

79a

80a

81a

82a

83a

84a

85a

86a

87a

88a

89a

90a

91a

92a

93a

94a

95a

96a

97a

98a

99a

100a

101a

102a

103a

104a

105a

106a

107a

108a

109a

110a

111a

112a

113a

114a

115a

116a

117a

118a

119a

120a

121a

122a

123a

124a

125a

126a

127a

128a

129a

130a

131a

132a

133a

134a

135a

136a

137a

138a

139a

140a

Appendix H

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. AP-76,883

TYRONE CADE, Appellant
v.
THE STATE OF TEXAS
ON DIRECT APPEAL FROM CAUSE NO. F11-33962-R
IN THE 265TH JUDICIAL DISTRICT COURT
DALLAS COUNTY
H ERVEY, J., delivered the opinion of the unanimous Court.
OPINION
In August 2012, a jury convicted Tyrone Cade, Appellant, of capital murder for
stabbing his girlfriend and her teenaged daughter to death during the same criminal
transaction or pursuant to the same scheme or course of conduct. T EX. P ENAL C ODE
§ 19.03(a)(7). Pursuant to the jury’s answers to the special issues set forth in Texas Code
of Criminal Procedure Article 37.071, sections 2(b) and 2(e)(1), the trial judge sentenced

141a

Cade 2
Appellant to death. T EX. C ODE C RIM. P ROC. A RT. 37.071, § 2(g).1 Direct appeal to this
Court is automatic. Art. 37.071, § 2(h). Appellant raises forty-four points of error. After
reviewing Appellant’s claims, we find them to be without merit. Consequently, we affirm
the trial court’s judgment and sentence.
I. F ACTS OF THE OFFENSE
The jury heard evidence that Appellant and Mischell Fuller had been romantically
involved for a number of years. They had also lived together in Fuller’s house for several
years. Appellant’s eleven year-old daughter, Tyra Cade, and Fuller’s seventeen-year-old
daughter, Desaree Hoskins, lived with them. Desaree was Fuller’s daughter with her exhusband, Karlton Hoskins, who was in prison when Fuller and Appellant began dating.
Michael Hoskins, Fuller’s older child with Karlton, lived in Denton.
Although Appellant was still living in Fuller’s house at the time of the killings,
their relationship had deteriorated due to various factors. One factor was Karlton’s 2009
release from a Florida prison, after which he began to reestablish a relationship with
Michael and Desaree. Fuller greatly encouraged Karlton’s efforts. Although Karlton lived
in Florida, he became a presence in Fuller’s and the children’s lives. Appellant, who was
jealous and possessive of Fuller, disliked her contact with Karlton. He suspected Fuller of
rekindling a romantic relationship with Karlton and told her that he did not want her exhusband to call the house. Even before Karlton’s renewed presence, Fuller had repeatedly
1

Unless otherwise stated, all future references to Articles are to the Texas Code of
Criminal Procedure.

142a

Cade 3
asked Appellant to move out. Appellant refused, and after one such request made shortly
before the killings, threatened to burn the house down with Fuller in it. Although Fuller
and Appellant still slept in the same bed, they had not been sexually intimate in several
months.
The killings occurred sometime in the early hours of March 27, 2011. Later that
day, Appellant turned himself in by calling 9-1-1 from a pay phone in a police station
lobby. After receiving Miranda2 warnings, Appellant gave officers video-recorded
statements in which he confessed to the killings in detail. According to his statements, on
the evening of March 26, 2011, he hid a recording device near Fuller’s side of the bed,
then went to a strip club with his cousin. After a few hours in the club, followed by an
unsuccessful search for prostitutes, Appellant returned to Fuller’s house around 2:00 a.m.
The recording device had captured a Skype conversation between Fuller and Karlton, and
Appellant listened to it when he returned home. Roughly two hours into the recording,
Appellant heard the conversation become sexual in nature.
Soon thereafter, Appellant got into bed with Fuller, who fell asleep but was later
awakened by Appellant’s tossing and turning in bed. When Fuller told Appellant to lie down
and go to sleep, Appellant showed Fuller a kitchen knife. Fuller began screaming when she
saw the knife, and Appellant repeatedly stabbed her. Fuller’s screams woke Desaree, who
ran into the bedroom to help her mother. Appellant stabbed Desaree several times and then

2

Miranda v. Arizona, 384 U.S. 436 (1966).

143a

Cade 4
returned to Fuller. When Desaree started to get up, Appellant stabbed her again multiple
times as she screamed and attempted to crawl away from him. When Desaree stopped
screaming and moving, Appellant walked back to Fuller, who was still alive and conscious.
Appellant vaginally and anally raped Fuller, claiming that he ejaculated “[i]n her, on her,
everywhere” because she made him feel like a sex offender.3 Appellant believed Fuller lived
for thirty to forty minutes after he first stabbed her, and he asserted that he sexually assaulted
her for twenty to thirty minutes of that time. While he was sexually assaulting Fuller,
Appellant heard Desaree speaking. He believed that Desaree survived longer than Fuller.
Officers found Fuller’s body in the master bedroom, face down and naked below
the waist. Fuller’s buttocks and vaginal area were propped up on several pillows; a bottle
of lubricant lay next to her body. Desaree’s body was in the hallway, immediately outside
the bedroom. In a bathroom, officers found a bloody knife and notebook containing
Appellant’s handwritten notes. Appellant wrote that Fuller had “kicked [him] to the curb”
when she began trying to mend the relationship between Karlton and her children.
Appellant also wrote that, because he could not live without Fuller, he took Fuller from
himself and “from . . . anyone else.” Although he expressed remorse for the killings,

3

When Fuller and Appellant began dating, he was facing charges in Collin County for the
1999 aggravated sexual assault of Charity Trice. As we discuss in greater detail regarding point
of error fifteen, a jury subsequently convicted Appellant of that offense. The convicting court
sentenced him to a three-year term of community supervision that included a ninety-day jail term
as a condition of community supervision. The community-supervision conditions also required
Appellant to register as a sex offender and attend a sex-offender treatment program. After
Appellant was terminated from his sex-offender treatment program, the convicting court revoked
his community supervision and sentenced him to three years in prison.

144a

Cade 5
Appellant also frequently deflected responsibility away from himself, writing, for
example, “[Fuller] used to treat me so good. Not like a sex offender”; “I’m truly sorry,
she drove me crazy trying to fix things with her kids and the father”; “I feel bad for so
many people, especially who knew . . . [Fuller]. All I can say is she had a bad side . . . . It
wasn’t always sunshine”; and “Thank Karlton Hoskins for this one.”
The medical examiner, Jill Urban, M.D., testified that Fuller died from being
stabbed twenty-eight times. Urban found defensive wounds on Fuller’s hands and wrists.
Several wounds to Fuller’s face, neck, and chest area were between four and five inches
deep. Desaree’s death resulted from thirty-nine stab wounds, many of which were also
between four and five inches deep. Urban testified that the perpetrator used a great deal of
force in inflicting Desaree’s injuries, noting that the wounds penetrated her bones.
II. I NSANITY DEFENSE
In point of error seven, Appellant contends that the evidence of his insanity so
greatly outweighed the State’s contrary evidence when viewed in a neutral light that the
verdict is manifestly unjust. We disagree.
Texas law excuses a defendant from criminal responsibility if he proves, by a
preponderance of the evidence, the affirmative defense of insanity. See T EX. P ENAL C ODE
§ 8.01(a). The relevant inquiry is whether, at the time of the charged conduct, and as the
result of a severe mental disease or defect, the defendant did not know that his conduct
was wrong. See id.; see also Ruffin v. State, 270 S.W.3d 586, 592 (Tex. Crim. App. 2008)

145a

Cade 6
(noting that “wrong” in the Section 8.01 context means “illegal”). In reviewing a rejected
affirmative defense such as insanity, we consider all of the evidence relevant to that
defense in a neutral light. Matlock v. State, 392 S.W.3d 662, 671 (Tex. Crim. App. 2013).
Although the Court views the relevant evidence in a neutral light, we may not usurp the
jury’s function by substituting our judgment for the jury’s assessment of witness
credibility and the weight of the evidence. Id.
To support his insanity defense, Appellant offered lay testimony from his halfbrother, Gregory Scott. Scott asserted that Appellant suffered from a severe mental defect
and did not know his conduct was wrong when he killed Fuller and Desaree. Scott
testified that he was four years older than Appellant and lived with Appellant, their
mother, and Appellant’s biological father, Jerry Cade Ford, until the age of six or seven.
Scott, who asserted that he and Appellant came from a “crazy bloodline,” testified that
Ford had mental problems. After the age of six or seven, Scott lived with his
grandparents. He had minimal contact with Appellant until they were both adults and
their now-deceased mother became terminally ill. Scott testified that he and Appellant had
difficult childhoods because their mother and Ford frequently abused each other in front
of them. According to Scott, Appellant seemed different and emotionally unstable after
serving a prison sentence for aggravated sexual assault. Scott also asserted that
Appellant’s mental state at the time of the offense was unstable, primarily due to chronic
back pain that Appellant self-treated with pain patches. Scott admitted that he had

146a

Cade 7
disliked Fuller and that he had suggested that Appellant place the recording device near
her bed.
Appellant also presented testimony from three psychologists: Daniel Altman,
Michael Gottlieb, and Gilda Kessner. Dr. Altman testified that he reviewed Ford’s
mental-health records, which showed that Ford had been diagnosed with schizophrenia
and schizoaffective disorder. Altman told the jury that, based on heritability research and
Ford’s diagnoses, Appellant had a 9 18% risk of developing the characteristics of
schizophrenia or schizoaffective disorder. On cross-examination, Altman acknowledged
that he did not examine or purport to diagnose Appellant with schizophrenia or any other
mental illness. He also stated that, in males, schizophrenia usually appears by a person’s
mid-twenties, and that it would be very unlikely for a thirty-eight-year-old male
(Appellant’s age at the time of the offense) to spontaneously develop schizophrenia.
Moreover, according to Altman, the vast majority of people with mental illnesses,
including schizophrenics, understand the difference between right and wrong.
Dr. Gottlieb testified that he learned through defense counsel of allegations that
Appellant’s mother and cousins sexually abused Appellant as a child. Gottlieb told the
jury that some sexually abused children may develop psychological symptoms during
adulthood. These symptoms can include internalizing and externalizing behavior,
physiological symptoms, distorted perceptions as a result of their experiences, and other
issues. However, the symptoms are nonspecific, meaning that they could originate from

147a

Cade 8
something entirely unrelated to the earlier abuse, and there is no causal link between the
earlier abuse and a particular psychological difficulty, if any, that subsequently develops.
On cross-examination, Gottlieb acknowledged that he received no independent
corroboration that the alleged sexual abuse actually occurred. And because he did not
examine Appellant or review any of his records, Gottlieb also could not say whether
Appellant actually manifested any psychological symptoms that might be consistent with
childhood sexual abuse. Gottlieb further agreed that individuals who have been abused as
children and develop psychological symptoms as adults are usually still able to conform
their behavior to societal norms. Gottlieb offered no opinion concerning whether
Appellant was insane at the time of the offense.
Defense counsel deposed Appellant’s father, Ford, in anticipation of Appellant’s
capital-murder trial. Following Gottlieb’s testimony, and in the jury’s presence, counsel
read a portion of Ford’s deposition testimony into the record.4 In that excerpt, Ford
asserted that he discovered Appellant’s mother performing fellatio on Appellant when
Appellant was about two years old. Ford testified that he responded by hitting Appellant’s
mother in the head with a hammer and stated that Appellant witnessed him inflict the
blow.
Dr. Kessner acknowledged that she worked exclusively for the defense in capital

4

Over Appellant’s objection, the trial judge excluded portions of Ford’s videotaped
deposition. Appellant proffered the entire deposition for purposes of appeal. The excluded
portion indicates that Ford gave his testimony while hospitalized for a physical illness.

148a

Cade 9
cases. Kessner testified about a mental condition she called “abandonment rage,” which
she acknowledged was not a diagnosis included in the American Psychiatric
Association’s Diagnostic and Statistical Manual. Kessner testified that a person
experiencing “abandonment rage” exists in a state of autonomic arousal. She stated that
such arousal limits cognitive processes and can cause an individual to lose control of his
behavior. Kessner asserted that a person who is experiencing stressors such as depression,
chronic pain, after-effects of childhood and adult trauma, and the threat of losing an
intimate partner would be more likely to enter a state of “abandonment rage” than a
person not subject to such stressors. She also asserted that an individual experiencing
“abandonment rage” would not know, at the moment of violence, that his conduct was
wrong. Kessner testified that there was a high probability that Appellant suffered from
“abandonment rage.” Kessner acknowledged, however, that she did not personally
examine Appellant in preparation for her testimony.5 Based on the information she
reviewed, and after vacillating greatly, Kessner ultimately stated that is was her opinion
that Appellant had a severe mental disease or defect at the time of the offense and did not
know that his conduct was wrong.
In rebuttal, the State presented the testimony of Tim Proctor, Ph.D., a forensic
psychologist. Dr. Proctor testified that he has worked as an expert witness for both the

5

Kessner testified that she relied on the report prepared by the State’s expert witness, Tim
Proctor; the notebook found at the crime scene; some letters written by Appellant after the
offense; conversations with defense counsel; and some professional literature.

149a

Cade 10
State and the defense. Proctor also stated that he personally evaluated Appellant for over
five hours and conducted a comprehensive record review. That review included records
of the instant offense, including police reports, Appellant’s 9-1-1 call, and Appellant’s
subsequent statements to police; the psychological evaluation conducted by mental-health
staff at the jail immediately following Appellant’s arrest; records of Appellant’s mentalhealth treatment while awaiting trial; police, community supervision, and prison records
associated with Appellant’s prior arrests and convictions; Appellant’s school,
employment, and medical records; and the mental-health records of Appellant’s father.
Proctor testified that clinical notes reflected the staff’s observations that Appellant
misrepresented, exaggerated, or completely lied about his mental condition in order to be
moved to a preferred-housing area. The notes further memorialized Appellant’s
admission that he cut his own wrist to make it look as if he were suicidal, so that jail
officials would transfer him from the administrative-segregation housing unit.
Proctor told the jury that, before the offense, Appellant showed some depressive
symptoms due to a back injury, but the symptoms did not rise to the level of a severe
mental disease or defect or “anywhere close.” Following the killings and Appellant’s
incarceration on capital-murder charges, psychological staff at the jail diagnosed
Appellant with adjustment disorder with depressed mood and treated him with the lowest
suggested therapeutic dose of a common antidepressant. Proctor described Appellant’s
depression as mild and stated that the adjustment disorder reflected Appellant’s reaction
to his current legal difficulties. Proctor also testified that neither of Appellant’s current
150a

Cade 11
diagnoses reached the level of a severe mental disease, and he opined that Appellant had
no severe mental disease or defect at the time of the offense. Therefore, Proctor
concluded, Appellant knew when he killed Fuller and Desaree that what he was doing
was wrong.
After reviewing all of the relevant evidence in a neutral light, we cannot conclude
that Appellant’s evidence of insanity greatly outweighed the contrary evidence such that it
renders the jury’s determination manifestly unjust, conscience-shocking, or clearly biased.
Matlock, 392 S.W.3d at 671. Point of error seven is overruled.
In point of error two, Appellant argues that the trial court erred by not admitting
Ford’s entire videotaped deposition into evidence over the State’s relevance objection.
See T EX. R. E VID. 401, 402. Appellant asserts that the excluded portion of the deposition,
in which Ford discussed his own mental-health history, was relevant to Appellant’s
insanity defense. Appellant alleges that the trial judge’s failure to admit Ford’s entire
deposition violated his Sixth Amendment right to due process by impeding his ability to
present a complete defense. In point of error three, relying on the same arguments,
Appellant alleges that the trial court erred by sustaining the State’s relevance objection to
the proposed testimony of Lilly Mae Ware, Ford’s niece and caretaker.
When a trial court sustains the State’s objection to the admission of a defendant’s
evidence, a federal due process violation may arise only if (1) a state evidentiary rule
categorically and arbitrarily prohibits the defendant from offering otherwise relevant,
reliable evidence vital to his defense; or (2) the trial court’s clearly erroneous ruling
151a

Cade 12
results in the exclusion of admissible evidence that forms the vital core of a defendant’s
theory of defense and effectively prevents him from presenting that defense. Easley v.
State, 424 S.W.3d 535, 540 (Tex. Crim. App. 2014) (quoting Walters v. State, 247
S.W.3d. 204, 219 (Tex. Crim. App. 2007)). Appellant does not contend that a state
evidentiary rule categorically and arbitrarily prohibited him from offering the testimony at
issue. Therefore, we consider only whether the trial court’s rulings that excluded the
remainder of Ford’s deposition and Ware’s proposed testimony were clearly erroneous
and whether the excluded evidence was so vital to Appellant’s insanity defense that its
exclusion effectively prevented him from presenting that defense. See id.
In his excluded deposition testimony, Ford stated that he had been diagnosed with
schizophrenia and bipolar disorder in his late twenties, he had been hospitalized many
times due to those conditions, and he had been prescribed various psychiatric medications
to treat his illnesses. Ford also described his disordered-thought processes and auditory
and visual hallucinations. Ford testified that his parents had no history of mental illness
and that none of his nine children had been diagnosed with any mental illness. Ware
proposed to testify about the history and characteristics of Ford’s mental illnesses and
offer her opinion that six of Ford’s children, including Appellant, had mental illness. But
in her proffered testimony, Ware admitted that she was not trained to diagnose mental
illnesses and had spent no significant time with Appellant.
Appellant is not entitled to relief. The trial court’s rulings excluding the remainder
of Ford’s deposition and Ware’s proposed testimony on relevance grounds were not an
152a

Cade 13
abuse of discretion. Shuffield v. State, 189 S.W.3d 782, 793 (Tex. Crim. App. 2006).
Further, the trial court’s rulings did not impede Appellant’s ability to present his insanity
defense. See Easley, 424 S.W.3d at 540. The issue central of Appellant’s insanity defense
was whether, at the time of the offense and as the result of a severe mental disease or
defect, Appellant did not know that his conduct was wrong. The excluded testimony
centered on Ford’s mental health, not Appellant’s. Appellant presented no evidence that,
like Ford, he had been diagnosed with schizophrenia or bipolar disorder. In addition, the
jury learned of Ford’s mental-health history and diagnoses through other witnesses,
including Appellant’s half-brother and Dr. Altman. Points of error two and three are
overruled.
In point of error four, Appellant alleges that the trial court abused its discretion by
not allowing Dr. Antoinette McGarrahan, a forensic neuropsychologist, to testify at the
guilt-innocence phase that Appellant exhibited symptoms of post-traumatic stress disorder
(PTSD) and depression and that he scored in the borderline range of intellectual
functioning.
The trial court held a hearing to determine the admissibility of McGarrahan’s
testimony. McGarrahan stated that she did not evaluate Appellant for insanity at the time
of the offense and had no opinion on that issue. Based on her evaluation and testing of
Appellant, McGarrahan planned to testify that Appellant had borderline-to-low-average
intellectual functioning and exhibited some symptoms associated with depression and
PTSD. McGarrahan stated that Appellant obtained an IQ score of 80 during her testing,
153a

Cade 14
but she also stated that she had no opinion regarding whether Appellant’s IQ rendered
him unable to understand that his conduct was wrong at the time of the offense.6

6

Although McGarrahan declined to render an opinion as to whether Appellant’s IQ score
of 80 allowed him to understand that his conduct was wrong at the time of the offense, she did
make general statements with respect to a person with an IQ of approximately 80,
[PROSECUTOR]: Okay. With respect to Mr. Cade’s IQ being an 80 -- and that’s
what your testimony is; is that correct?
[McGARRAHAN]: Yes, that’s what he tested at.
[PROSECUTOR]: Are you representing in your opinion that that is a severe
mental disease or defect?
[McGARRAHAN]: No, I’m not.
[PROSECUTOR]: And is it your -- so that is not your opinion?
[McGARRAHAN]: Correct.
[PROSECUTOR]: Have you ever rendered an opinion saying that an IQ of 80
would be a severe mental disease or defect?
[McGARRAHAN]: No.
[PROSECUTOR]: Is a person with an IQ of 80 able to discern right from wrong?
[McGARRAHAN]: Based solely on their intellect, yes.
[PROSECUTOR]: So there’s nothing with respect to his IQ that would relate to
an opinion of yours that at the time of the offense he did or did not have a severe
mental disease or defect or that he was or was not able to understand what he was
doing was wrong?
[McGARRAHAN]: Correct.
[PROSECUTOR]: And with respect to mental retardation, you are in no way
saying the defendant is mentally retarded, are you?
[McGARRAHAN]: That’s correct.

154a

Cade 15
McGarrahan found that Appellant exhibited a depressed affect during her evaluation, but
she did not know when the symptoms first appeared or whether they played a role in his
commission of the offense. She also believed that it was possible that most of Appellant’s
depressive symptoms stemmed from the fact that he was incarcerated and facing capitalmurder charges. McGarrahan additionally acknowledged that she did not actually
diagnose Appellant with PTSD, she did not know when the PTSD-like symptoms first
appeared, she could not exclude the possibility that his symptoms could be entirely due to
his recent commission of a double homicide, and she did not know whether the symptoms
played any role in his commission of the offense.
The trial judge’s decision to exclude McGarrahan’s testimony at the guiltinnocence phase due to lack of relevance fell well within the zone of reasonable
disagreement. Shuffield, 189 S.W.3d at 793. McGarrahan had no opinion regarding
whether Appellant was insane at the time of the killing

the purpose for which Appellant

offered her testimony. See Easley, 424 S.W.3d at 540. Point of error four is overruled.
III. S UFFICIENCY OF THE EVIDENCE—F UTURE DANGEROUSNESS
In point of error fifteen, Appellant contends that the evidence was insufficient to
sustain the jury’s affirmative answer to the future-dangerousness special issue. The
future-dangerousness special issue requires the jury to determine “whether there is a

[PROSECUTOR]: Can you categorically say the defendant is not mentally
retarded?
[McGARRAHAN]: Yes.

155a

Cade 16
probability that the defendant would commit criminal acts of violence that would
constitute a continuing threat to society.” Art. 37.071, § 2(b)(1). When reviewing the
legal sufficiency of the evidence supporting an affirmative answer to the futuredangerousness special issue, we review the evidence in the light most favorable to the
verdict. Williams v. State, 273 S.W.3d 200, 213 (Tex. Crim. App. 2008); see Jackson v.
Virginia, 443 U.S. 307, 318 19 (1979). Assessing the evidence and all reasonable
inferences therefrom in the light most favorable to the verdict, we determine whether any
rational trier of fact could have believed beyond a reasonable doubt that there is a
probability the defendant would commit criminal acts of violence that would constitute a
continuing threat to society. Williams, 273 S.W.3d. at 213.
Both the facts of the offense and other evidence showing Appellant’s escalating
pattern of violence and disrespect for the law were sufficient to support the jury’s
affirmative answer to the future-dangerousness special issue. See Swain v. State, 181
S.W.3d 359, 370 (Tex. Crim. App. 2005); see also Devoe v. State, 354 S.W.3d 457,
461 62 (Tex. Crim. App. 2011). Regarding the facts of the offense, we have recognized
that a stabbing death is particularly brutal. King v. State, 953 S.W.2d 266, 272 (Tex.
Crim. App. 1997). “[A] knife is a weapon which by its very nature, forces the user to be
in such close proximity to his victim that he is often touching him or comes into contact
with him on each blow.” Id. (quoting Martinez v. State, 924 S.W.2d 693, 696 (Tex. Crim.
App. 1996)). Further, “the character of the weapon is such that several thrusts are often

156a

Cade 17
utilized in order to ensure death

each additional thrust potentially indicating to any

rational juror that such a personal act requires a wanton and callous disregard for human
life.” Id.
Here, the evidence showed that Appellant stabbed Fuller twenty-eight times and
Desaree thirty-nine times, using great force to inflict deep, painful wounds. By
Appellant’s own estimate, Fuller and Desaree both had between thirty and forty minutes
to experience the pain and terror of his attack before they died. For Fuller, this interval
included a vaginal and anal sexual assault while she was dying but still conscious and
able to experience pain and fear. While sexually assaulting Fuller, Appellant was aware
that Desaree was still alive, within close proximity of her mother’s ongoing sexual
assault, and sufficiently conscious to speak. In short, the sheer brutality and depravity of
the killings could convince a jury that Appellant poses a future danger to society. Even if
the jury had been inclined to find that Appellant’s conduct stemmed from an isolated
incident of rage, it could have rationally concluded from the results that Appellant’s “rage
is of such an uncontrollable and extreme nature that he is a continuing danger to society.”
Sonnier v. State, 913 S.W.2d 511, 517 (Tex. Crim. App. 1995).
But the jury also heard evidence concerning Appellant’s prior criminal history,
which included a 1987 juvenile adjudication of delinquent conduct for burglary of a
habitation, evidence that Appellant committed aggravated assault with a deadly weapon
when he shot a man named Edward Watts with a shotgun in 1993, and a 1999 conviction

157a

Cade 18
for the aggravated sexual assault of Charity Trice. See Young v. State, 283 S.W.3d 854,
864 (Tex. Crim. App. 2009) (noting that evidence the defendant had previously
committed aggravated sexual assault supported the jury’s finding of future
dangerousness); King, 953 S.W.2d at 271 72 (recognizing the commission of burglary of
a habitation as evidence tending to show future dangerousness). Trice testified that, when
she was twenty-one-years old, she met Appellant in a laundromat and exchanged numbers
with him. Eventually, she invited Appellant to have drinks with her and her co-workers
after work. Trice rode to the bar with a co-worker and was there for between one and two
hours before asking Appellant to drive her home. Trice had a new apartment, was proud
of it, and invited Appellant in to see it. After they talked for a bit, Trice went into her
bedroom and closed the door to pack because she intended to stay the night at a friend’s
house.
As she went to the front door to leave her apartment, Appellant grabbed her arm
and refused to let her leave. Trice testified that Appellant told her that he “wanted [her]
pussy” and threw her to the ground. When Trice tried to fight him, Appellant told her,
“Don’t make me kill you like the last girl.” Because Trice believed Appellant would kill
her if she did not yield to his advances, she pretended to welcome the sexual contact and
led Appellant into her bedroom to get him as far from the front door as possible so she
could escape. In the bedroom, Appellant never let go of her wrist as he made her remove
her clothing and then engaged in vaginal intercourse with her. Afterward, Appellant

158a

Cade 19
forced Trice to stand over him as he performed oral sex on her.
The moment Trice felt she could safely escape, she wrapped herself in a blanket
because she was naked and ran to a neighbor’s apartment where she waited for police.
Trice sustained injuries to her wrist, chin, hands, and forehead. Appellant had left the
scene by the time police arrived, but he left a message on Trice’s answering machine the
next day apologizing for the previous night. Appellant was convicted by a jury and
sentenced to three years’ community supervision. As a condition of his community
supervision, Appellant served ninety days in jail. He was also required to register as a sex
offender and attend a sex-offender treatment program.
The jury also heard evidence of Appellant’s behavior and attitude following his
aggravated-sexual-assault conviction. Mercedes Sabal, Appellant’s communitysupervision officer for that offense, asserted that, while Appellant was incarcerated, he
was critical of his past decisions and expressed willingness to adhere to his communitysupervision conditions. However, following Appellant’s release from jail, he “had an
about face,” told Sabal he would not adhere to the conditions, and denied his guilt,
contending that Trice consented to their encounter.
Al Merchant led the sex-offender treatment program that Appellant was required
to attend. Merchant testified that, during the initial assessment, he found Appellant to be
extremely manipulative. Appellant denied having sexually assaulted Trice, asserting that
he and Trice were engaged in consensual sex when her boyfriend or husband interrupted

159a

Cade 20
them. Merchant testified that at the first group session, Appellant continued to maintain
his innocence. Appellant also attempted to cry in front of the group, a behavior that
Merchant surmised was not a genuine emotional response and further exemplified
Appellant’s willingness to try to manipulate people. Appellant skipped his second session.
At his third session, which was ultimately his last session, Appellant was evasive,
argumentative, disruptive, and manipulative. As a result, Merchant testified, he
terminated Appellant from the program. In the discharge summary, Merchant wrote that
Appellant’s recidivism risk was extremely high.
Following Appellant’s termination from the treatment program, the court revoked
his community supervision and sentenced him to three years in prison. Appellant’s
disciplinary records while incarcerated showed that Appellant was found in possession of
contraband and had an altercation with another inmate, during which Appellant suffered a
black eye and the other inmate suffered a fractured thumb.
The jury additionally heard evidence that, in 1993, Appellant asked his cousin,
Ashton Scott,7 to help him confront a man named Edward Watts. When the two men
found Watts, Watts pointed a gun at them and Ashton left. After someone later shot Watts
in the back, police officers arrested Ashton for aggravated assault with a deadly weapon.
After making bail, Ashton confronted Appellant, who admitted to shooting Watts with a
shotgun. Ashton asked Appellant to confess to the police, but Appellant refused. The

7

To distinguish him from Gregory Scott, we hereafter refer to Ashton Scott as “Ashton.”

160a

Cade 21
police eventually dropped the charges against Ashton, and no one was convicted for
shooting Watts. Ashton also testified that, in 2002, Appellant hit their uncle in the face
with a beer bottle during an altercation, and that his uncle bled profusely.
Bobbi Jo Klute dated Appellant off and on for a few years in the mid 1990s. Klute
testified that, while they were dating, Appellant threw a beer bottle at her vehicle
windshield after the two argued in her car. She also stated that, during a period that they
were not dating, Klute was at her father’s house with a male friend when Appellant
kicked in the door, entered the living room, and assaulted Klute’s friend. On another
occasion, Klute and her son were visiting her son’s father, and although Klute and
Appellant were not dating at the time, Appellant showed up, knocked on the door, and
asked her to leave with him. Klute did so to avoid a confrontation. Appellant sometimes
told Klute that if he could not have her, no one could. Klute grew afraid of Appellant and
tried to end their relationship permanently, but Appellant refused to accept the decision
and harassed her for months. He would call Klute from a pay phone located near her
house, follow her, and enter her home without her permission while she was away.
Viewed in the light most favorable to the verdict, the evidence was sufficient to
support the jury’s affirmative answer to the future-dangerousness special issue. Point of
error fifteen is overruled.
IV. R EMAINING GUILT– INNOCENCE ALLEGATIONS
In point of error one, Appellant claims that the trial court erred by permitting

161a

Cade 22
two witnesses to testify that, in March 2011, Fuller told them that Appellant had
threatened her when she asked him to move out. Appellant contends that the testimony
constituted inadmissible hearsay;8 violated the Sixth Amendment’s Confrontation Clause
under Crawford v. Washington, 541 U.S. 36, 42 (2004); and was unfairly prejudicial
under Rule 403 of the Texas Rules of Evidence.9 This point of error is multifarious
because it is based on more than one legal theory. T EX. R. A PP. P. 38.1; Davis v. State,
329 S.W.3d 798, 820 (Tex. Crim. App. 2010). However, we will review Appellant’s
allegations in the interest of justice.
The witnesses in question were Elena Belcher, Fuller’s mother, and Sandra
Hopkins, Fuller’s friend. The trial court permitted Belcher to testify that, shortly before
her death, Fuller said she was going to replace her smoke detector and install a house
alarm because, when Fuller had asked Appellant to move out of her house, Appellant
threatened to burn the house down with Fuller in it. The trial court allowed Hopkins to
testify about a conversation with Fuller, during which Fuller made substantially similar
statements to her.

8

“‘Hearsay’ is a statement, other than one made by the declarant while testifying at the
trial or hearing, offered in evidence to prove the truth of the matter asserted.” TEX . R. EVID .
801(d).
9

Rule 403 provides that, “[a]lthough relevant, evidence may be excluded if its probative
value is substantially outweighed by the danger of unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue delay, or needless presentation of cumulative
evidence.” TEX . R. EVID . 403. Unless otherwise stated, all future references to “Rules” refer to
the Texas Rules of Evidence.

162a

Cade 23
Even assuming that the trial court erred by overruling Appellant’s hearsay and
Rule 403 objections, the error did not affect Appellant’s substantial rights. See T EX. R.
A PP. P. 44.2(b). The evidence of Appellant’s guilt was overwhelming without Belcher’s
and Hopkins’s objected-to testimony. In addition, the relevant testimony did not
materially weaken Appellant’s affirmative defense of insanity. In short, the testimony did
not have a substantial and injurious effect or influence in determining the jury’s verdict.
See Coble v. State, 330 S.W.3d 253, 280 (Tex. Crim. App. 2010).
Appellant’s Confrontation Clause argument also lacks merit. In Crawford, the
Supreme Court held that the Confrontation Clause prohibits the admission of testimonial
hearsay, and it stated that, at a minimum, the term “testimonial” applies to police
interrogations and prior testimony at a preliminary hearing, before a grand jury, or at a
former trial. See Crawford, 541 U.S. at 68; Woods v. State, 152 S.W.3d 105, 113 (Tex.
Crim. App. 2004). Accordingly, our threshold inquiry is whether the statements at issue
were testimonial or nontestimonial. The record shows that Fuller’s statements to Belcher
and Hopkins were casual remarks that she made to her mother and a friend. We have
previously determined that similar casual remarks to acquaintances are nontestimonial for
Crawford purposes. See Woods, 152 S.W.3d at 114. Point of error one is overruled.
In point of error five, Appellant alleges that the trial court erred in admitting
State’s Exhibits 109 113 (crime scene photographs) over his Rule 403 objection.
Appellant contends that the photographs were unfairly prejudicial because they were

163a

Cade 24
graphic and in color, most showed Fuller’s breasts and genitals, and the State had
minimal need for the them. Appellant asserts that the sexual-assault evidence was not
essential to the State’s case because the indictment did not charge him with having
murdered Fuller in the course of committing sexual assault.
The record shows that Appellant did not object to the admission of the photograph
marked as State’s Exhibit 111. Thus, Appellant did not preserve any alleged error for our
review regarding that exhibit. See T EX. R. A PP. P. 33.1.
Regarding the remaining exhibits, Rule 403 requires that a photograph possess
some probative value and that its inflammatory nature not substantially outweigh that
value. Williams v. State, 301 S.W.3d 675, 690 (Tex. Crim. App. 2009). We review a trial
court’s admission of photographs over a Rule 403 objection for an abuse of discretion. Id.
We examine several factors, including the photographs’ probative value, their potential to
impress the jury in some irrational and indelible way, the time needed to develop the
evidence, and the proponent’s need for the photographs. Prible v. State, 175 S.W.3d 724,
733 (Tex. Crim. App. 2005). We also consider the number of photographs, their
gruesomeness, their level of detail, their size, whether they are in color or black-andwhite, whether they are close-ups, whether they depict a clothed or nude body, the
availability of other means of proof, and other circumstances unique to the individual
case. Williams, 301 S.W.3d at 690. When elements of a photograph are genuinely helpful
to the jury in making its decision and the photograph’s power “emanates from nothing

164a

Cade 25
more than what the defendant himself has done[,] we cannot hold that the trial court has
abused its discretion merely because it admitted the evidence.” Sonnier, 913 S.W.2d at
519; see Prible, 175 S.W.3d at 734 n.20.
The record shows that police officers found Fuller’s body lying face-down on the
master bedroom floor and naked below the waist. A bottle of lubricant lay next to Fuller’s
body. Her buttocks and vaginal area were elevated by pillows. The photographs at issue
are in color and measure roughly 8 ½ x 12 inches. They reflect Fuller’s body as it
appeared after forensic personnel lifted her shirt and rolled her body over to gauge the
extent of her injuries. To the extent that Fuller’s body is shown in these photographs, she
is on her back and naked except for a shirt that is pulled above her breasts.
State’s Exhibit 109 shows Fuller’s face and body to the knees. There are stab
wounds on Fuller’s face, on the area between her breasts, on her right shoulder and upper
chest area, and on her upper and lower right arm. A relatively small amount of blood is
visible on Fuller’s skin. Heavier blood stains appear on her shirt, the bedding material
underneath her, and the adjacent carpet. A bottle of lubricant near the body is partially
visible at the edge of the photograph. State’s Exhibit 110 is a closer view of Fuller’s
torso, from her navel to just below her chin. Wounds on Fuller’s right shoulder and upper
arm are visible, but the focus of the photograph is a stab wound between Fuller’s breasts.
As in State’s Exhibit 109, some blood is visible on Fuller’s skin. The quantity of blood
that stains Fuller’s shirt is more apparent than in State’s Exhibit 109. State’s Exhibit 112

165a

Cade 26
gives a close-up view of wounds on Fuller’s right shoulder and upper chest area, rightupper arm, and right forearm. Fuller’s left breast, the blood-stained shirt pulled above the
breast, and a portion of her neck are visible. State’s Exhibit 113 shows Fuller’s body from
the neck to the knees. Wounds to the area between her breasts and right arm are visible,
as is blood on her skin and shirt. The photograph is taken from approximately the same
distance but at a slightly different angle than State’s Exhibit 109. The bottle of lubricant
that was only partially visible in State’s Exhibit 109 is fully visible in State’s Exhibit 113.
The photographs showed evidence that was directly relevant to, and probative of,
the charged offense. Besides showing Fuller’s wounds, the photographs corroborated
Appellant’s statements to police and witness testimony concerning the crime scene. See
Prible, 175 S.W.3d at 731. To the extent that the photographs were also probative of the
sexual assault, they constituted same-transaction contextual evidence. See id. at 732
(“Same-transaction contextual evidence results when an extraneous matter is so
intertwined with the State’s proof of the charged crime that avoiding reference to it would
make the State’s case incomplete or difficult to understand.”).
Further, the danger of unfair prejudice did not substantially outweigh the
photographs’ probative value. Whatever power the photographs possessed emanated
primarily from what Appellant himself did. See Sonnier, 913 S.W.2d at 519. Under these
circumstances, the trial court did not abuse its discretion by admitting State’s Exhibits
109, 110, 112, and 113. Point of error five is overruled.

166a

Cade 27
In point of error six, Appellant alleges that the trial court erred by refusing to give
his proposed instruction on the lesser-included offense of murder:
If all of you do not agree by a preponderance of the evidence that as a result
of a severe mental disease or defect, the defendant did not know that his
conduct was wrong when he intentionally or knowingly caused the death of
[Fuller], but all of you agree that by preponderance of the evidence as a
result of a severe mental disease or defect, the defendant did not know that
his conduct was wrong when he intentionally or knowingly caused the death
of [Desaree,] then you will find the defendant not guilty by reason of
insanity as to the offense of capital murder [and] then you will consider
whether the defendant is guilty of the offense of murder of [Fuller].
We apply a two-step analysis to determine whether the jury should receive a lesserincluded offense instruction. State v. Meru, 414 S.W.3d 159, 162 (Tex. Crim. App. 2013).
First, we ask whether the lesser-included offense’s elements are included within the proof
necessary to establish the charged offense’s elements. Id. at 162. If they are, we then
inquire whether the record includes evidence that could allow a rational jury to find the
defendant guilty of only the lesser-included offense. Id.; see Art. 37.09; Feldman v. State,
71 S.W.3d 738, 750 51 (Tex. Crim. App. 2002).
Appellant meets the first prong of the test; we have repeatedly held that murder is a
lesser-included offense of capital murder. See, e.g., Smith v. State, 297 S.W.3d 260, 275
(Tex. Crim. App. 2009). However, Appellant does not satisfy the second prong. Appellant
points us to the general circumstances of the offense and his statements in which he
professed an inability to explain why he killed Desaree. But as the State notes, this
evidence suggests that Appellant lacked a motive to kill Desaree. It does not provide a

167a

Cade 28
rational basis for finding that, due to a severe mental disease or defect, when Appellant
stabbed Desaree thirty-nine times, he did not know that his conduct was wrong.
Further, the evidence does not support a finding that Appellant’s state of mind
when he killed Desaree was different from his state of mind when he killed Fuller. Dr.
Proctor, the State’s expert, testified that Appellant was sane during both killings.
Appellant’s expert, Dr. Kessner, opined that Appellant was insane during both killings
because he was in a state of “abandonment rage” and autonomic arousal from the moment
Fuller screamed (upon seeing Appellant in her bed with a knife) until “the violence
stopped.” For the jury to find Appellant guilty of the lesser-included offense, it would
necessarily have to disregard both Proctor’s and Kessner’s testimony. It would have to
find that Appellant was thinking rationally when he began to stab Fuller, but he then
entered a state of autonomic arousal (i.e., became insane) when Desaree entered the
bedroom, and he began stabbing her. He then regained rational thought when he stopped
stabbing Desaree and returned to stabbing Fuller. Finally, he returned to a state of
autonomic arousal (i.e., became insane again) when Desaree began to get up, and he
stabbed her multiple additional times. In short, the evidence could not allow a rational
jury to find Appellant guilty of only murder. See Feldman, 71 S.W.3d at 750 51. Point of
error six is overruled.
V. R EMAINING P UNISHMENT-PHASE ALLEGATIONS

168a

Cade 29
In points of error eight through ten, Appellant challenges the trial court’s rulings
excluding the punishment-phase testimony of his expert witnesses, Mark Vigen, Ph.D.
(point of error 8) and Jonathan Sorensen, Ph.D. (point of error 9), and admitting the
testimony of the State’s expert, Travis Turner (point of error 10). Appellant alleges that
the trial court should have permitted Vigen, a psychologist, to testify that there was a high
probability that the Texas Department of Criminal Justice (TDCJ) could control Appellant
if the jury sentenced him to life without parole. Next, Appellant asserts that the trial court
should have allowed Sorensen, who holds a criminal-justice doctorate, to testify that
individuals convicted of homicides involving intimate partners are less likely than other
inmates to commit violence in prison. Finally, Appellant contends that the trial court
should not have permitted Turner, a TDCJ classification officer, to testify about the types
of weapons that prison inmates make.
The record shows that Turner first testified at a hearing outside the presence of the
jury and later in the presence of the jury during the State’s punishment case-in-chief.
During the hearing outside the presence of the jury, Appellant objected on relevance
grounds to Turner’s proposed testimony about the kinds of inmate-made weapons he had
encountered during his TDCJ career. Appellant argued that other inmates made the
weapons in question, and that Appellant was not imprisoned when the discussed weapons
were found. The trial court overruled the objection, and Turner was excused. Later, when
the State recalled Turner in the presence of the jury, Turner testified about TDCJ’s

169a

Cade 30
inmate-classification system, living conditions and restrictions within each classification
of inmate, the general kinds of violence and disciplinary infractions that sometimes occur
in prison, and the kinds of weapons that inmates have made. Turner offered no testimony
relating specifically to Appellant.
After the State rested its punishment case, Appellant called Johnny Lindsey to
testify. Lindsey, who told the jury that he spent twenty-six years in TDCJ for aggravated
sexual assault until being exonerated by DNA testing, testified about the prison
environment. On cross-examination, without a defense objection, Lindsey stated that
inmates commonly made and possessed shanks.
After Lindsey testified, the trial court held a hearing outside the jury’s presence to
determine the admissibility of testimony to be offered by defense witnesses S.O. Woods,
Sorensen, and Vigen as experts. See T EX. R. E VID. 702. Woods, a retired TDCJ
classifications officer, proposed to clarify aspects of Turner’s testimony regarding
TDCJ’s inmate-classification system and ability to control inmates. After questioning
Woods briefly, the State indicated that it did not object to his proposed testimony. Next,
Sorensen stated that he proposed to testify that inmates convicted of intimate-partner
homicides are less likely to commit acts of violence in prison than other inmates. The
basis of Sorensen’s opinion was his research, i.e., a study of TDCJ inmates convicted of
capital murder, murder, or manslaughter that involved the killing of an intimate partner.
The trial court continued the hearing to allow Sorensen to retrieve a copy of his

170a

Cade 31
research. In the meantime, the jury heard testimony from two defense witnesses, one of
whom was Woods. On direct examination, Woods testified about TDCJ’s inmateclassification system and ability to control inmates. On cross-examination, and without a
defense objection, Woods testified that prison inmates are very creative and can fashion
almost anything into a weapon, including shoe laces, combs, and handkerchiefs. Like
Turner, Woods offered no testimony specifically related to Appellant.
When the hearing resumed, the State elicited testimony from Sorensen that his
study was the first of its kind, incomplete, had not been peer reviewed or published, and
no one had replicated his study’s results. Sorensen acknowledged that, although
successful peer review is some indication that a study “seems to look okay,” replication of
a study’s results, rather than peer review, validates the study. At the end of Sorensen’s
hearing testimony, the trial court stated that it would review Kelly v. State, 824 S.W.2d
568, 572 73 (Tex. Crim. App. 1992), before deciding whether it would permit Sorensen
to testify before the jury.
The trial court then heard from Vigen. Vigen stated that he had reviewed some
offense and TDCJ records related to Appellant’s conviction and imprisonment for
aggravated sexual assault, but he had not personally examined him. Vigen proposed to
testify that TDCJ “has a high probability of controlling individual inmates.” He also
stated that he based his opinion on thirty-five years of working as a psychologist in Texas
prisons; five articles on prison violence written by other people including Sorensen;

171a

Cade 32
Vigen’s own co-authored article, in which he summarized research “indicating that a
majority of death row inmates do not exhibit violence in prison even in more open
institutional settings”; and Turner’s and Woods’s testimony before the jury. Although
Vigen initially asserted that he would not offer an opinion specific to Appellant, he
ultimately stated that he would testify that there was a high probability that TDCJ could
control Appellant, in particular. When asked whether he based his opinion on anything
individual to Appellant, Vigen acknowledged that he had not evaluated Appellant but
noted that he had listened to Turner’s and Woods’s testimony.
The State objected to Vigen’s proposed testimony. It argued that Vigen was not
“qualified” to render an opinion about the probability that TDCJ could control Appellant
because Vigen had reviewed very little information about the case, had not been present
throughout the entire trial, and had not interviewed Appellant. Appellant countered that
the State’s argument concerned the weight to be given to Vigen’s opinion, rather than
Vigen’s qualifications to render it. The trial judge ruled Vigen’s testimony was
inadmissible. After recessing to review Kelly, the trial judge also excluded Sorensen’s
testimony.
Rule 702 governs the admission of expert testimony. Tillman v. State, 354 S.W.3d
425, 435 (Tex. Crim. App. 2011). It states, “If scientific, technical, or other specialized
knowledge will assist the trier of fact to understand the evidence or to determine a fact in
issue, a witness qualified as an expert by knowledge, skill, experience, training, or

172a

Cade 33
education may testify thereto in the form of an opinion or otherwise.” Rule 702. For
evidence to be admissible under Rule 702, the proponent must demonstrate by clear and
convincing evidence that the expert testimony is sufficiently reliable and relevant to assist
the jury in reaching accurate results. Everitt v. State, 407 S.W.3d 259, 263 (Tex. Crim.
App. 2013).
Reliability in this context “refers to the scientific basis for the expert testimony.”
Id. (citing Jordan v. State, 928 S.W.2d 550, 553 54 (Tex. Crim. App. 1996)). Where, as
in Appellant’s case, the expertise involves a “soft” science,10 the proponent may establish
reliability by showing that (1) the field of expertise at issue is a legitimate one, (2) the
subject matter of the expert’s testimony falls within the scope of that field, and (3) the
expert’s testimony properly relies on or utilizes the principles involved in that field. See
Nenno v. State, 970 S.W.2d 549, 561 (Tex. Crim. App. 1998). In making its admissibility
determination, the trial court may consider seven other factors that potentially affect
reliability: (1) the extent to which the underlying scientific theory and technique are
accepted as valid by the relevant scientific community, if such community can be
ascertained; (2) the testifying expert’s qualifications; (3) the existence of literature
supporting or rejecting the underlying scientific theory; (4) the technique’s potential rate

10

Weatherred v. State, 15 S.W.3d 540, 542 n.5 (Tex. Crim. App. 2000) (“The ‘hard’
sciences, areas in which precise measurement, calculation, and prediction are generally possible,
include mathematics, physical science, earth science, and life science. The ‘soft’ sciences, in
contrast, are generally thought to include such fields as psychology, economics, political science,
anthropology, and sociology.”).

173a

Cade 34
of error; (5) the availability of other experts to test and evaluate the technique; (6) the
clarity with which the underlying scientific technique can be explained to the court; and
(7) the experience and skill of the person who applied the technique on the occasion in
question. State v. Medrano, 127 S.W.3d 781, 784 n.4 (Tex. Crim. App. 2004).
“Relevance refers to the ‘fit’ of the scientific principles to the evidence at hand.”
Everitt, 407 S.W.3d at 263. “Relevance is a looser notion than reliability and is a simpler,
more straightforward matter to establish.” Tillman, 354 S.W.3d at 438 (internal quotation
marks omitted); see Jordan, 928 S.W.2d at 555 (noting that expert testimony is relevant
under Rule 702 if it will assist the trier of fact and is sufficiently tied to the facts of the
case). Although relevance is the less demanding of the two required showings for
admissibility under Rule 702, we have emphasized that the proponent will not always
satisfy it. See Jordan, 928 S.W.2d at 555. “[T]he issue under the reliability and relevance
conditions is whether the expert’s testimony took into account enough of the pertinent
facts to be of assistance to the trier of fact on a fact in issue.” Vela v. State, 209 S.W.3d
128, 133 (Tex. Crim. App. 2006) (internal quotation marks omitted).
We review a trial court’s decision to admit or exclude expert testimony for an
abuse of discretion. Tillman, 354 S.W.3d at 435. We will not reverse if the trial court’s
decision falls within the zone of reasonable disagreement or is correct under any theory of
law applicable to the case. State v. Esparza, 413 S.W.3d 81, 85 (Tex. Crim. App. 2013).
Appellant contends that the trial court should have permitted Vigen to testify about

174a

Cade 35
TDCJ’s ability to control Appellant because Vigen reviewed, and based his opinion on,
Appellant’s prison records, some offense reports concerning Appellant’s aggravatedsexual-assault conviction, Woods’s and Turner’s testimony, and relevant research in his
field. Alternatively, Appellant asserts that the trial court should have permitted Vigen to
testify through answers to hypotheticals that Appellant would not be a future danger in
prison.
To the extent Vigen proposed to testify about the probability that TDCJ could
control Appellant, the trial court’s ruling fell within the zone of reasonable disagreement.
The record does not support Appellant’s assertion that Vigen based his opinion on any
information specific to Appellant. At the admissibility hearing, the State asked Vigen
repeatedly about the bases for his opinion, and Vigen responded by listing his own
experience, articles that were not specific to Appellant, and Turner’s and Woods’s
testimony before the jury. Vigen did not include his review of Appellant’s prison record
and offense reports related to Appellant’s aggravated-sexual-assault conviction as a basis
for his opinions. Further, neither Turner nor Woods offered testimony specific to
Appellant. The trial court did not abuse its discretion when it precluded Vigen from
testifying about the probability that TDCJ could control Appellant.
To the extent Appellant argues that the trial court should have allowed Vigen to
testify via hypotheticals that Appellant would not be a future danger in prison, the record
does not show that Appellant suggested this alternative to the trial court. In responding to

175a

Cade 36
the State’s objection to Vigen’s proposed testimony, defense counsel argued:
Many times mental health professionals are given hypotheticals and asked
to render opinions about future dangerousness and [sic] certainly qualifies
within that category and meets the test of [Nenno] on the soft sciences that
he’s qualified to give an expert opinion. Any objection would go to the
weight. There’s no question about his qualifications and he’s been qualified
to testify in other death penalty cases [sic] the same or similar type of
issues.
Although counsel mentioned the word “hypotheticals,” it was in the context of an
argument that the trial court should allow Vigen to testify that TDCJ would be able to
control Appellant. The trial court cannot be fairly expected to have known from counsel’s
argument that, if the trial court did not allow Vigen to testify about TDCJ’s ability to
control Appellant, then Appellant wished to put Vigen on the stand to testify about
Appellant’s future dangerousness via hypotheticals. And when the trial court ruled that
Vigen’s testimony was inadmissible, Appellant did not seek clarification of the ruling’s
scope. To the extent he would have otherwise presented Vigen’s testimony in the form of
hypotheticals, Appellant failed to preserve any complaint. See T EX. R. A PP. P. 33.1(a).
Point of error eight is overruled.
Sorensen proposed to offer an opinion based on the results of a novel and
incomplete study that had not been peer-reviewed, published, or replicated. The trial court
acted within its discretion when it found Sorensen’s testimony inadmissible under Rule
702. See Coble, 330 S.W.3d at 277 80; Medrano, 127 S.W.3d at 784 n.4. Point of error

176a

Cade 37
nine is overruled.11
We do not reach the merits of point of error ten concerning the admission of
Turner’s testimony because, even if it was error for the trial court to admit Turner’s
testimony, Appellant was not harmed by that admission. “[W]hen a defendant offers the
same testimony as that objected to, or the same evidence is introduced from another
source, without objection, the defendant is not in position to complain on appeal.” See
Hughes v. State, 878 S.W.2d 142, 156 (Tex. Crim. App. 1992) (quoting Stoker v. State,
788 S.W.2d 1, 13 (Tex. Crim. App. 1989)). Although Appellant objected to Turner’s
testimony concerning weapons made by inmates, he did not object when Lindsey and
Woods gave substantially the same testimony. Point of error ten is overruled.
In point of error eleven, Appellant argues that the trial court erred when it denied
his request for a mistrial after Sabal, his former community-supervision officer, testified
that he failed a polygraph while on community supervision for aggravated sexual assault.
Although polygraph evidence is generally not admissible in Texas courts, the trial court
did not abuse its discretion by denying Appellant’s motion for mistrial. See Ex parte
Bryant, 448 S.W.3d 29, 40 (Tex. Crim. App. 2014); Leonard v. State, 385 S.W.3d 570,
573 n.2 (Tex. Crim. App. 2012).

11

In response to Appellant’s eighth and ninth points of error, the State Prosecuting
Attorney’s Office has filed a postsubmission brief urging this Court to overrule Berry v. State,
233 S.W.3d 847 (Tex. Crim. App. 2007). The State Prosecuting Attorney argues that our holding
in Berry is implicated by the question of whether the testimony of Drs. Vigen and Sorensen was
relevant. We decline the invitation in this case because, as discussed above, this Court is able to
resolve both points of error without deciding the relevancy issue.

177a

Cade 38
Sabal’s complained-of testimony occurred during the State’s direct examination.
Sabal testified that, following Appellant’s termination from a mandatory sex-offendertreatment program, an arrest warrant issued, and the district attorney filed a motion to
revoke Appellant’s community supervision. He also asserted that Appellant knew that the
termination endangered his community supervision and that Appellant acted “to extend
his stay in the community.” When the prosecutor asked Sabal to explain what she meant
by that phrase, she answered,
When a sex offender is unsuccessfully discharged from treatment[,] then we
need to find another treatment provider that’s going to accept that defendant
into their program. That is not an easy thing to do once the offender has
been discharged from treatment, especially for the reasons [Appellant] was
discharged. . . . [I]t was difficult to find sex offender treatment providers
who would accept an offender who was discharged because [he was]
denying the offense for which [he] was placed on [community supervision]
and had failed a polygraph.
The defense objected, arguing that Sabal’s statement about the polygraph was irrelevant
and highly prejudicial. The trial court sustained the objection and instructed the jury to
disregard the statement, but it denied Appellant’s subsequent request for a mistrial. The
record reveals no further reference to the polygraph result by either party.
We review a trial court’s denial of a motion for mistrial for an abuse of discretion,
and will uphold the ruling if it falls within the zone of reasonable disagreement. Coble,
330 S.W.3d at 292. Here, the alleged grounds for mistrial arose from Sabal’s apparently
unanticipated answer to the State’s question. This scenario is most closely aligned with
cases in which a bystander or witness made a spontaneous outburst that interfered with

178a

Cade 39
the normal proceedings of a trial. See, e.g., id. at 291 92; Gamboa v. State, 296 S.W.3d
574, 580 (Tex. Crim. App. 2009); see also Williams v. State, 643 S.W.2d 136, 138 (Tex.
Crim. App. 1982) (discussing a State witness’s unresponsive answer, which inadvertently
placed information prejudicial to the defendant before the jury). In those instances, we
held that the denial of a motion for mistrial would not result in reversible error unless the
defendant showed the existence of a reasonable probability that the outburst interfered
with the jury’s verdict. Coble, 330 S.W.3d at 292 (citing Stahl v. State, 749 S.W.2d 826,
829 (Tex. Crim. App. 1988) (op. on reh’g)). In the context of bystander or witness
outbursts, we generally consider a trial court’s instructions to disregard sufficient to cure
the impropriety because we presume that the jury will follow those instructions. Coble,
330 S.W.3d at 292; see also Williams, 643 S.W.2d at 138 (noting the general rule that an
instruction to disregard is sufficient to cure prejudice from a nonresponsive answer given
by a State’s witness).
Appellant argues that we should not apply our normal presumption concerning the
sufficiency of an instruction to disregard because Sabal disclosed the results of the
polygraph, as well as the fact that Appellant took such a test. In support, Appellant relies
on Robinson v. State, 550 S.W.2d 54, 59 61 (Tex. Crim. App. 1977), Nichols v. State,
378 S.W.2d 335, 338 (Tex. Crim. App. 1964), and Jones v. State, 680 S.W.2d 499, 502
(Tex. App.

Austin 1983, no pet.). He contends that these cases stand for the proposition

that an instruction to disregard is insufficient to cure harm when the jury learns of a

179a

Cade 40
polygraph’s results. Relying on United States v. Murray, 784 F.2d 188 (6th Cir. 1986),
Appellant also asserts that we should not apply the presumption because we should
consider Sabal a government agent who referred to the polygraph’s result in bad faith.
However, all of the cases upon which Appellant relies are distinguishable.
In Robinson and Nichols, the prosecution bolstered the testimony of key guiltinnocence phase witnesses concerning the charged offense. Robinson, 550 S.W.2d at 59
(stating that the accomplice-witness’s testimony was vital to the State’s capital-murder
prosecution); Nichols, 378 S.W.2d at 336 (noting that the State’s statutory-rape case
depended entirely on the 14-year-old complainant’s testimony). The prosecution did so in
Nichols by asking the victim if she had taken a polygraph and in Robinson by repeatedly
eliciting testimony that these witnesses had taken, and passed, polygraphs regarding their
accounts of the charged offense. See Robinson, 550 S.W.2d at 56 59; Nichols, 378
S.W.2d at 336 37. In Jones, the prosecution impeached the defendant’s punishmentphase testimony, in which she asserted that she killed the victim accidentally. Jones, 680
S.W.2d at 500 01. It did so by obtaining the defendant’s admission on cross-examination
that she had taken a polygraph and lied in response to several questions. Id. at 502. The
State also elicited testimony through another witness that the polygraph examiner
believed the defendant had lied when she denied her part in the murder. Id. In Murray, an
experienced FBI agent who investigated the defendant for mail fraud testified at the guiltinnocence phase of the defendant’s later trial on those charges. See Murray, 784 F.2d at

180a

Cade 41
188. During his testimony, the agent referred to the fact that the defendant had taken a
polygraph regarding the charged offense. Id. The panel majority found that the agent’s
reference to the test was deliberate and that the trial court’s instruction to disregard the
comment was inadequate to cure the error. Id. at 188 89.
In Appellant’s case, the record does not support a finding that the prosecutor’s
question was designed to elicit testimony concerning the polygraph or that the prosecutor
could have reasonably anticipated the reference. Further, the record shows that the
prosecutor did not mention the polygraph or result after Sabal’s fleeting reference. In
addition, Sabal’s reference occurred during the punishment phase, when the potential for
prejudice was less than if it had occurred at the guilt-innocence phase. See Coble, 330
S.W.3d at 293. Also, Sabal’s brief mention of the examination’s result concerned the
circumstances in which the convicting court revoked Appellant’s community supervision
for an extraneous offense. Sabal’s reference did not concern a polygraph in which
Appellant or a witness submitted to questioning about the capital murder for which
Appellant was then on trial. The record also does not support Appellant’s assertion that
Sabal’s reference to the polygraph and its result was the product of bad faith.
After review, we find no reasonable probability that Sabal’s objected-to testimony
interfered with the jury’s punishment verdict. The evidence supporting the jury’s answers
to the punishment-phase special issues was substantial. Sabal’s reference to the
polygraph’s result was brief, unsolicited, and concerned an extraneous matter; further, the

181a

Cade 42
State did not attempt to capitalize upon the reference. See Coble, 330 S.W.3d at 293.
Under these circumstances, Appellant has not overcome the presumption that the trial
court’s instruction to disregard was sufficient to cure any harm that may have otherwise
resulted from the objectionable testimony. Point of error eleven is overruled.
In point of error twelve, Appellant argues that the trial court erred by allowing two
of Desaree’s friends, Allison Nelson and Justus Rodgers, to give victim-impact testimony.
Appellant asserts that their testimony was improper because the State did not elicit their
testimony in response to defense mitigation evidence and because close relatives were
available to provide victim-impact testimony. But Appellant has failed to preserve this
complaint because his argument on appeal does not comport with his objection at trial.
T EX. R. A PP. P. 33.1; Bekendam v. State, 441 S.W.3d 295, 300 (Tex. Crim. App. 2014).
At trial, the sole basis for Appellant’s objection was that Nelson and Rodgers were not
family members. The trial court overruled the objection, finding the testimony admissible
under Mosley v. State, 983 S.W.2d 249, 263 (Tex. Crim. App. 1998) (concluding that
victim-impact testimony is not rendered improper merely because the witness is not a
family member). Point of error twelve is overruled.
In point of error thirteen, Appellant contends that the trial court erred when it
declined to include the following jury instructions in the punishment charge:
No juror has to agree with [any] other juror as to what is [a] mitigating
circumstance or set of circumstances that justifies a sentence of life. The
duty to deliberate only requires that each juror give careful consideration to
the evidence in the issue that you are to consider to give an individual true

182a

Cade 43
verdict according to the law and the evidence.
No juror is to be swayed by mere sentiment, conjecture or sympathy for the
deceased or family of the deceased, nor are you to consider any prejudice or
public opinions or public feeling that may exist against [Appellant] in
considering an answer to Special Issue No. 2.
During your careful consideration of the special issues, each juror is entitled
to his or her own personal moral judgment as to the right answer for these
issues.
Appellant asserts that the proposed instructions were all part of the law of capital
jurisprudence and were necessary to guide the jury so that it would apply the death
penalty in a constitutional manner.
Appellant’s argument lacks merit. Article 37.071, subsection (e), sets forth the law
applicable to the mitigation special issue. The trial court’s charge tracked that statutory
language. See Martinez, 924 S.W.2d at 699 (“Following the law as it is set out by the
Texas Legislature will not be deemed error on the part of the trial judge.”). Point of error
thirteen is overruled.
In point of error fourteen, Appellant asserts that the trial court reversibly erred by
overruling his objection to the State’s allegedly improper punishment-phase argument.
Appellant contends that the State misstated the law by suggesting that the death penalty
would be a proper verdict based only on an affirmative answer to the futuredangerousness special question. He argues that Texas law “presumes that a life sentence
is appropriate and a death sentence [inappropriate]” unless the jury answers the futuredangerousness special issue in the affirmative and the mitigation special issue in the

183a

Cade 44
negative.
The record shows that, after correctly stating the two special issues, the prosecutor
linked the evidence presented at trial to them. See Art. 37.071, § 2(b)(1), 2(e)(1). The
prosecutor first focused on the offense facts, arguing that the “horrific[,] senseless,
unjustified violence” Appellant had inflicted was relevant to both special issues and
showed that Appellant was the type of person who “deserv[ed] a death
sentence”

“exactly what Special Issue 1 and 2 are about.” She also drew the jury’s

attention to the evidence of Appellant’s extraneous offenses and other bad acts, arguing
that they constituted additional reasons for the jury to return an affirmative answer to the
future-dangerousness special issue. After asking the jury to return an affirmative answer
on future dangerousness, the prosecutor segued into her argument concerning the
mitigation issue:
The answer to Special Issue No. 1 is yes. What the State of Texas
asks [is] that you vote that way, all of you, and you move on to Special
Issue No. 2.
Now on this special issue, we don’t have the burden of proof, [and]
neither does the defense. It’s left up to you. And [Special Issue No. 2] really
asks you is there anything that is sufficiently mitigating to warrant that he
shouldn’t have the death sentence that you’ve already determined that he
deserves by the answer of yes to Special Issue No. 1.
Appellant objected to the last sentence of the passage set forth above, arguing that it
misstated the law because “the death sentence is not imposed until all questions are
answered.” The trial court overruled the objection.

184a

Cade 45
We perceive no misstatement of law. The prosecutor did not argue that Appellant
could lawfully receive a death sentence based only on an affirmative answer to the futuredangerousness special issue. The State’s argument was reasonably understood as a
hypothetical, in which it posited that the jury had already answered “yes” to the futuredangerousness special issue and was beginning to deliberate on the mitigation issue. Once
the jury has made an affirmative finding concerning future dangerousness, a defendant’s
sentence is presumptively death unless, after considering the mitigating evidence presented
to it, the jury also answers the mitigation special issue in the affirmative or deadlocks on
that issue. See Art. 37.071, § 2(g). Point of error fourteen is overruled.
VI. V OIR DIRE—B ATSON CHALLENGES
In points of error fifteen and sixteen, Appellant alleges that the trial court erred in
denying his Batson12 challenges to the State’s use of peremptory strikes against AfricanAmerican veniremembers Viola Brimmer and Leamon Parker. Appellant, who is AfricanAmerican, contends that racial discrimination motivated the strikes.
In Batson, the United States Supreme Court held that the Equal Protection Clause
forbids a prosecutor from exercising peremptory strikes based solely on the basis of a
potential juror’s race. Nieto v. State, 365 S.W.3d 673, 675 (Tex. Crim. App. 2012). A
Batson challenge involves a three-step process. Blackman v. State, 414 S.W.3d 757, 764
(Tex. Crim. App. 2013). First, the defendant must make a prima facie showing of racial

12

Batson v. Kentucky, 476 U.S. 79 (1986).

185a

Cade 46
discrimination. Nieto, 365 S.W.3d at 676. In the second step, the burden of production
shifts to the prosecutor, who must articulate a race-neutral explanation for the strike. Id.
Finally, the trial court determines whether the defendant has proved purposeful
discrimination. Id.
The trial court’s ruling on the purposeful-discrimination step must be upheld unless
it is clearly erroneous. Id. In determining whether clear error occurred, we are not limited
to the arguments or considerations that the parties specifically called to the trial court’s
attention; rather, we look to the entire record of voir dire. Blackman, 414 S.W.3d at 765.
We review the evidence in the light most favorable to the trial court’s ruling. Young v.
State, 283 S.W.3d 854, 866 (Tex. Crim. App. 2009).
The record shows that Brimmer’s individual voir dire took place before Judge Quay
Parker.13 Lead prosecutor Heath Harris questioned Brimmer for the State. At the
conclusion of Brimmer’s voir dire, the State exercised the first of its fifteen statutorily
granted peremptory strikes to remove her from jury service. See Art. 35.15(a). Defense
counsel responded with a preemptive Batson challenge, noting Brimmer’s race and gender,
and that the State had used its first peremptory strike against a person of a minority race.
Harris and two other members of the prosecution team who were present during
Brimmer’s voir dire

Jason Hermus and Rachel Jones

made a contemporaneous record

of their race-neutral reasons for striking Brimmer.
13

Judge Mark Stoltz presided over Appellant’s trial. In addition to Judge Parker, Judges
Joseph Clayton, Webb Biard, and Jim Fry assisted Judge Stoltz with individual voir dire.

186a

Cade 47
Harris stated that he was concerned that Brimmer would demand that the State meet
a higher standard of proof than the law required. Harris asserted that Brimmer’s jurorquestionnaire responses and individual voir dire testimony manifested Brimmer’s belief
that the death penalty had been applied disproportionately to African-Americans in Texas,
generally, and in Dallas County, specifically. Harris also noted that, in her questionnaire
responses, Brimmer had expressed a clear preference for life without the possibility of
parole over a death sentence. Harris said that Brimmer’s sentencing preference also
manifested itself during her voir dire through Brimmer’s reluctance to say that she could
answer the special issues according to the evidence, if doing so would result in a death
sentence:
And when I asked her on numerous occasions, numerous time after time
[sic] trying to get her to commit that if we prove [Appellant guilty of capital
murder] and if Special Issue One was answered yes and Special Issue Two
was answered no, if she could render a death sentence, she was very, very
reluctant in answering. I almost at one point had to move on because I
couldn’t get her to say that she would do death over life.
And I just think that it’s clear from [Brimmer’s voir dire] that there seemed
to be a huge reluctance on her part to ever really consider a death sentence
versus a life sentence without the possibility of parole, which is what she
indicated not only on her questionnaire but also here today. And that’s the
primary reason I struck her.
Hermus stated that he and Jones concurred with Harris on all the reasons Harris had
expressed to the court. Hermus then gave his additional reasons for striking Brimmer.
Hermus stated that he had concerns with Brimmer before her individual voir dire, based on
the equivocating nature of many of her juror-questionnaire answers, and he offered a

187a

Cade 48
nonexhaustive list of examples: (1) Brimmer was not sure whether she favored the death
penalty, (2) Brimmer wrote “none at this time” when asked to provide the best argument
for the death penalty, and (3) Brimmer thought conviction of multiple murders was
“possibly” a proper basis for death eligibility. Hermus asserted that Brimmer’s live
testimony often reflected a similar equivocation. He noted that Brimmer often rephrased
Harris’s questions into what she apparently wanted the question to be, rather than what
Harris had asked.
Hermus stated that Brimmer’s demeanor during the State’s voir dire also troubled
him. He observed Brimmer make faces at Harris or grimace on four different occasions
when Harris tried to elicit her opinion on the death penalty and ability to impose it.
Hermus believed that Brimmer’s facial expressions and accompanying verbal responses
indicated either displeasure with or disdain toward Harris. Alternatively, Hermus believed
that Brimmer’s expressions and responses reflected her reluctance to answer the special
issues according to the evidence if a death sentence would result. Hermus also noted that
Brimmer said that she had an issue with African-Americans being “railroaded” onto Death
Row. Lastly, Hermus mentioned that Brimmer’s “reluctance initially to [sic] circumstantial
evidence” concerned the prosecution team.
Jones added that she was also troubled by Brimmer’s hesitation and facial
expression when Harris asked whether Brimmer could convict someone on the testimony
of one witness, if the witness could testify to every element of the offense and Brimmer

188a

Cade 49
believed the witness. Jones asserted that Brimmer’s facial expression and response
indicated disbelief that the State could obtain a conviction for capital murder based on the
testimony of only one witness. Jones acknowledged that Brimmer qualified her initial
response, but Jones asserted that Brimmer’s qualification was also problematic because it
suggested that Brimmer would require eyewitness testimony:
[W]hen we talked to her about proving our case with one witness and if she
believed that witness, she proceeded to go on -- she had some hesitation
about that and, again, her facial expression, saying, how could you only
have one witness?
And then she qualified it by saying, oh, well, if that one witness saw him
commit the crime, and managed to get out, before they too were stabbed,
well, then okay, then I could do it.
Jones also cited Brimmer’s responses when Harris discussed the State’s burden of
proof and tried to determine whether Brimmer would increase that burden. Jones asserted
that Brimmer’s answers were equivocal or uninformative, because Brimmer would
essentially say no more than, “I just expect you to prove it. I would expect you to prove it.”
Jones also stated that towards the end of the State’s voir dire, Brimmer expressed the
sentiment that, in her heart, she did not believe in the death penalty.
After the prosecutors gave their reasons for striking Brimmer, defense counsel
stated that he would reserve questions because the Batson challenge was premature at that
stage of voir dire. Judge Parker agreed that the challenge was premature and denied it,
stating that Appellant could reurge it at a later time.
A week later, venire member Parker’s individual voir dire took place before Judge

189a

Cade 50
Clayton. Harris questioned Parker for the State. At the conclusion of defense counsel’s
voir dire, prosecutor Jones challenged Parker for cause on two grounds. See Art. 35.16.
First, Jones asserted that, although his answers on the issue vacillated somewhat, Parker’s
final answer during the State’s voir dire was that the prosecution would have to prove its
case to a degree that left no doubt in his mind. Jones argued that Parker was, therefore,
requiring 100% proof from the State

more than proof beyond a reasonable doubt

which

made him challengeable for cause under Narvaiz v. State, 840 S.W.2d 415, 427 (Tex.
Crim. App. 1992). Second, Jones argued that Parker did not consider circumstantial
evidence to be valid and could not return a guilty verdict based solely on circumstantial
evidence. When these challenges for cause were unsuccessful, Hermus lodged two
additional challenges for cause based on Parker’s opposition to the death penalty as
expressed in his juror questionnaire responses and voir dire testimony. Judge Clayton also
denied the State’s additional challenges for cause.
The next day, the State used its second peremptory strike to remove Parker from the
venire. Hermus asked to place the State’s reasons for the strike on the record, in case of a
later Batson challenge. Hermus stated that the State struck Parker based on his
questionnaire answers and voir dire testimony. Hermus particularly drew the court’s
attention to Parker’s answers to the following questions:
•

(Q. 1) Parker indicated that he was not in favor of the death penalty
and wrote, “Only God should make that decision.”

•

(Q. 2) Parker indicated that he did not believe that the death penalty

190a

Cade 51
should ever be imposed, but if the law provided for it, he could
assess it under the proper circumstances.
•

(Q. 4 5) Parker asserted that he had moral, religious, or personal
beliefs that would prevent him from sitting in judgment of another
human being or returning a verdict that would result in another’s
execution. In explanation, Parker wrote that “[t]he Bible tells us not
to judge others” and returning a verdict that would result in a death
sentence “mean[t] I [was] judging another and could cost them their
life.”

•

(Q. 7) Parker wrote “none” when asked to provide the best argument
for the death penalty.

•

(Q. 8) Parker wrote that “God[’]s word” was the best argument
against the death penalty.

•

(Q. 10) Parker disagreed with Texas law to the extent it makes
multiple-murder a capital offense.

•

(Q. 11) Parker disagreed that some crimes warrant the death penalty
solely because of their severe facts and circumstances, regardless of
whether the guilty person has committed prior violent acts. Parker
wrote, “If you kill the[n] you are no better than they are.”

•

(Q. 12) Parker disagreed with Texas law to the extent it permits
conviction of a crime, including capital murder, based solely on
circumstantial evidence, with no eyewitnesses. Parker wrote, “That is
not beyond a reasonable doubt to me.”

•

(Q. 14) Parker indicated that he did not believe in an eye for an eye,
writing that “God said turn the other cheek.”

•

(Q. 18) Parker indicated that he did not believe that Texas applies the
death penalty fairly. Parker wrote, “By statistic[s,] black men are
given the death penalty more than whites, therefore I feel it is
unfair.”

•

(Q. 20) When asked whether he believed the death penalty is used
too often or too seldom, Parker wrote, “Too often, one is too many.”

191a

Cade 52

•

(Q. 130) Parker indicated that he would not want to serve as a juror
in Appellant’s case, writing, “Because of the death penalty.”

Hermus stated that Parker’s responses to the foregoing questionnaire items reflected a
strong bias against the death penalty, and Hermus did not believe that Parker could set it
aside.
Based on Parker’s questionnaire responses and voir dire testimony, Jones echoed
Hermus’s belief that, despite Parker’s best efforts, he would not be able to overcome his
scruples against the death penalty. Jones added that they were also concerned by the
hesitation and reservations that Parker expressed about circumstantial evidence, as well as
the burden of proof he would impose on the State,
And then we asked him, [e]ven if you believe the circumstantial evidence,
could you find somebody guilty, he vacillated on that. He said, [t]o me,
circumstantial evidence is no proof that there’s a case, and that he would
always be concerned that it was somebody else that did it without an
eyewitness. . . . [T]here could have been . . . other people involved that
would lead to this person being innocent, and that he would want us to
prove the case to him to where he would have no doubt in his mind, which
is why the State submitted him for a challenge for cause on requiring 100
percent proof. He further said that circumstantial evidence, he considers
that weak evidence.
Judge Clayton overruled Appellant’s Batson challenge as to Parker, with leave to reurge
the challenge later in voir dire.
When the Batson hearing occurred, about halfway through voir dire, the State had
used a total of four strikes, exercising its third and fourth peremptory challenges to remove
two white veniremembers, including Linda Schultz. Judge Stoltz presided over the Batson

192a

Cade 53
hearing, assisted by Judge Clayton, who had conducted Parker’s individual voir dire.
Attempting to show that the State’s race-neutral explanations for striking Brimmer and
Parker were pretextual, defense counsel asserted that Brimmer, Parker, and a white venire
member, John Nily, had each indicated on their questionnaires that they “had problems”
with circumstantial evidence. Defense counsel asserted that the State had questioned Nily
differently about the subject by giving him a more full explanation of what such evidence
includes. Defense counsel examined prosecutors Harris (who had questioned Brimmer and
Parker) and Jones (who had questioned Nily), asking them to explain the alleged disparity.
Harris testified that the general explanation of circumstantial evidence he gave to
veniremembers varied, depending on different factors. Harris stated that the key difference
between Brimmer, Parker, and Nily was that, although all three indicated on their
questionnaires that they had problems with circumstantial evidence, Nily specifically
indicated that he favored the death penalty. In contrast, Parker voiced strong opposition to
the death penalty and Brimmer indicated uncertainty about the death penalty and a
preference for life without the possibility of parole. Harris testified that the State’s main
concern with Parker was his very strong opposition to the death penalty. Harris said that
Parker’s attitudes toward circumstantial evidence also concerned the State but were
secondary to Parker’s stance on capital punishment. Harris testified that he tailored his
questioning of Parker accordingly. Harris also testified that he explained to Parker that
circumstantial evidence includes DNA and fingerprint evidence.

193a

Cade 54
Harris testified that Brimmer’s opposition to the death penalty was not as apparent
from her questionnaire responses as Parker’s, but it became clear during voir dire that she
strongly favored life imprisonment without the possibility of parole over a death sentence.
As to defense counsel’s allegation that he did not explain the concept of circumstantial
evidence to Brimmer, Harris noted that Brimmer was a trained paralegal and mediator who
had worked for several law firms. Harris testified that Brimmer was not an average juror
and gave no sign of needing the concept explained to her. Moreover, when Harris
explained other aspects of death-penalty law, Brimmer’s demeanor suggested that she felt
insulted.
Harris testified that Brimmer’s legal background and current employment also
factored into the State’s decision to strike her. Harris stated that the prosecution team
subjected individuals with legal backgrounds to greater scrutiny due to concern that they
would be more opinionated and likely to influence other jurors during deliberations. Harris
asserted that Brimmer’s job as an administrative officer for a Veteran’s Hospital was
problematic, because it potentially brought her into contact with people having mentalhealth complaints. Harris testified that similar concerns had caused the State to use its
fourth peremptory strike against venire member Schultz, who was white and headed the
special-education department for a local high school.
Defense counsel questioned Jones about her description, during Nily’s voir dire, of
circumstantial evidence as “almost a trick question.” Jones denied that, by using the term

194a

Cade 55
“trick question,” she had meant that either party had designed questions to trick potential
jurors. Jones explained that she used that phrase merely to reassure Nily. Jones stated that
Nily had seemed a little intimidated by the process, based on his demeanor on the stand
and statements that he had never been to court or involved in jury selection. When she
asked him about circumstantial evidence, Jones explained:
[Nily] seemed maybe ashamed . . . when I said, do you know that
circumstantial evidence includes things like DNA and fingerprints? [T]he
record can’t fully reflect it, but he did one of these like no, just kind of
backing away, looking around at everybody.
And, so, I wanted to reassure him that there was nothing wrong with it, that
it is somewhat of a trick question, and I think -- We don’t explain that DNA
and fingerprints are circumstantial evidence. Most people don’t think about
it in those terms, and that was exactly how it was with him.
Defense counsel asked Jones why the State did not provide the same explanation to
Brimmer and Parker. Jones responded that Harris had given Parker substantially the same
explanation and that Brimmer did not seem to need an explanation. Jones further testified
that the State’s main concern during voir dire was always the venire member’s attitudes
about capital punishment. Jones asserted that Brimmer and Parker held fundamentally
different views from Nily. Jones explained that Brimmer said that she would keep the
death penalty if she were governor of Texas, but also stated that, in her heart of hearts, she
believed in life imprisonment without the possibility of parole rather than death. Jones
stated that Parker did not believe in the death penalty, but asserted that he was willing to
perform his civic duty, even at the risk of violating his conscience. Jones asserted that

195a

Cade 56
Nily, in contrast, testified that he had always believed in the death penalty and would
expand death eligibility to rapists and repeat child abusers.
At the conclusion of the hearing, Judge Stoltz stated that he had reviewed the
transcripts of Brimmer’s, Parker’s, and Nily’s individual voir dire. He denied Appellant’s
Batson challenges to Brimmer and Parker, finding that the State’s facially race-neutral
reasons for striking them Brimmer and Parker were genuine and reasonable.
After twelve jurors had been seated, the defense reurged its Batson challenges to
Judge Stoltz. Defense counsel asserted that, before the Batson hearing, the prosecution
team had questioned African-American veniremembers differently than they had
questioned other potential jurors. Counsel argued that, following the Batson hearing, the
prosecutors began to question African-American veniremembers in a way that was more
consistent with how they questioned other jurors. Counsel averred that the alleged change
supported the defense’s argument that race motivated the State’s strikes against Brimmer
and Parker. Defense counsel noted that, following the Batson hearing, the parties had
accepted James Brown, an African-American male, as a juror. Counsel offered the
transcript of Brown’s individual voir dire as an exhibit to support his reurged Batson
challenges.
Jones, who had questioned Brown for the State, responded that the State’s
questioning during individual voir dire was
a fluid proposition . . . based on the questionnaire. It depends on how the
juror answers the questions, it depends on the style of the prosecutor who is

196a

Cade 57
doing that individual questioning. So yes, some of the questions may
change, some may be more in-depth depending on what answer the juror
gives, and certainly, as we pointed out before, it all starts with how and
whether or not that person believes in the death penalty.
Mr. Brown has always believed in the death penalty, he talked about that in
his questionnaire, talked about that in individual voir dire.
Mr. Parker on his questionnaire said he did not believe in the death penalty
and never has, thereby marking a three [on Question 2]. [Brimmer] marked
a two on [Question 2 of] her questionnaire. However, one of the first things
she said in voir dire [was] that she did not favor the death penalty or believe
in it.
Jones asserted “absolutely” that any change in the State’s questioning was due to the way
the veniremembers answered the questionnaire, rather than the color of their skin. Jones
also noted that, besides accepting Brown as a juror, the State also accepted Betty Pettway,
Rosetta Johnlouis, and Diane Tyler, all of whom were African-American. Jones stated that
Pettway was seated as juror, while the defense used peremptory challenges against
Johnlouis and Tyler. After reviewing Brown’s questionnaire and the transcript of his
individual voir dire, Judge Stoltz again denied Appellant’s Batson challenges.
After reviewing the entire record of voir dire, we conclude that Appellant is not
entitled to relief. Initially, we note that the State exercised only seven of its fifteen
available peremptory strikes, using only two of those seven against African-American
jurors. It used the other five against white veniremembers. The State also accepted four
African-American veniremembers as jurors, and ultimately two of those individuals served
on Appellant’s jury. Further, the record amply supports the race-neutral explanations that

197a

Cade 58
the prosecution team offered at the time of the strikes, the Batson hearing, and when
Appellant reurged his Batson challenges after twelve jurors had been seated. See Jasper v.
State, 61 S.W.3d 413, 422 (Tex. Crim. App. 2001) (stating that valid and neutral reasons
for exercising a peremptory challenge include a veniremember’s vacillation regarding his
capacity to impose the death penalty despite personal beliefs, and numerous answers in a
veniremember’s questionnaire indicating a bias against the imposition of the death
penalty).
After viewing the evidence in the light most favorable to the trial court’s ruling, we
conclude that the trial court’s denial of Appellant’s Batson challenges was not clearly
erroneous. Young, 283 S.W.3d at 866. Points of error fifteen and sixteen are overruled.
VII. V OIR DIRE—D ENIALS OF CHALLENGES FOR CAUSE
In points of error eighteen through thirty-four, Appellant alleges that the trial court
erred in denying his challenges for cause to seventeen veniremembers: Jimmy Lumpkins,
Bevin Koshy, Chad Newton, Andrew Askins, Veronica Hernandez, Jana Morgan, Pieter
Kessels,14 Jennifer Hilburn, Charles Sturgeon, Rosetta Johnlouis, Diana Tyler,15 Tiffany
Langdon, Camille Sowden, Karen Evans, Patti Matthews, Gaylord O’Con, and Kenneth
Adair. The record shows that Appellant exhausted his fifteen peremptory strikes, using

14

In point of error twenty-four, Appellant names “Peter Kessels” as the venire member at
issue. In the record, Kessels’s first name appears as “Pieter.”
15

In point of error twenty-eight, Appellant names “Diane Taylor” as the juror against
whom he raised a challenge for cause. We understand him to refer to venire member Diana Tyler.

198a

Cade 59
fourteen of them to remove Lumpkins, Koshy, Newton, Askins, Hernandez, Morgan,
Kessels, Hilburn, Sturgeon, Johnlouis, Tyler, Langdon, Sowden, and Evans after the trial
court denied his cause-based challenges to them.16 After Evans’s dismissal, Appellant
received and used two additional peremptory strikes to remove Matthews and O’Con after
unsuccessfully challenging them for cause. The trial court denied Appellant’s challenge
for cause to Adair, as well as Appellant’s request for a third additional strike. Appellant
asserted that, as a result of the trial court’s refusal to grant an eighteenth peremptory strike,
he had been forced to accept an objectionable juror, Adair.17 Because Appellant received
two additional peremptory strikes, he can only demonstrate harm by showing that the trial
court erroneously denied at least three of his challenges for cause. Comeaux v. State, 445
S.W.3d 745, 749 (Tex. Crim. App. 2014); Chambers v. State, 866 S.W.2d 9, 22 23 (Tex.
Crim. App. 1993).
A defendant may challenge a venire member for cause if the member is biased or
prejudiced against the defendant or the law on which the State or defendant is entitled to
rely. Gardner v. State, 306 S.W.3d 274, 295 (Tex. Crim. App. 2009); see Art. 35.16(a)(9),
(c)(2). A trial court must excuse the prospective juror if bias or prejudice would
substantially impair the juror’s ability to carry out his oath and instructions in accordance
with the law. Feldman, 71 S.W.3d at 744. But before the judge excuses a potential juror

16

Appellant exercised his eighth peremptory strike against venire member Can Icduygu.
Appellant did not challenge Icduygu for cause.
17

The record shows that Adair became the twelfth member of Appellant’s petit jury.

199a

Cade 60
for cause, the law must be explained to the juror. Gardner, 306 S.W.3d at 295. The
proponent of the challenge for cause bears the burden of establishing that the challenge is
proper. Id. The proponent does not meet this burden until he has shown that the venire
member understood the requirements of the law and could not overcome his prejudice well
enough to follow the law. Id.
When reviewing a trial court’s decision to deny a challenge for cause, we look to
the entire record to determine whether sufficient evidence exists to support the court’s
ruling and reverse only for a clear abuse of discretion. Davis, 329 S.W.3d at 807. Because
the trial judge is in the best position to evaluate a potential juror’s demeanor and
responses, we review a trial court’s ruling on a challenge for cause with considerable
deference. Gardner, 306 S.W.3d at 295; see Burks v. State, 876 S.W.2d 877, 893 (Tex.
Crim. App. 1994) (stating that the trial judge is in the best position to determine whether a
potential juror will set aside his views and honestly and truthfully follow the juror’s oath).
When a prospective juror’s answers concerning his ability to follow the law are
vacillating, equivocating, ambiguous, unclear, or contradictory, we accord particular
deference to the trial court’s decision. Gardner, 306 S.W.3d at 295; Moore v. State, 999
S.W.2d 385, 400, 407 (Tex. Crim. App. 1999).
A. Lumpkins
When defense counsel asked Lumpkins to explain his feelings about the insanity
defense, he answered: “I think -- I think it would have to be very strong, compelling

200a

Cade 61
evidence, but it’s not something I reject out of hand.” Defense counsel argued that this
statement showed that Lumpkins would require Appellant to prove insanity by a
compelling-evidence standard, rather than a preponderance. See T EX. P ENAL C ODE
§ 8.01(a).
The trial court did not abuse its discretion in denying Appellant’s challenge for
cause on this basis. Lumpkins’s statement did not necessarily indicate that he would
require Appellant to prove insanity by more than a preponderance standard. Further, the
remainder of the exchange between Lumpkins and defense counsel suggested that
Lumpkins did not see “compelling” evidence as something that was inconsistent with a
preponderance-of-the-evidence standard. After Lumpkins used the phrase “compelling
evidence” and stated that he would not automatically reject an insanity defense, defense
counsel continued to question him as follows:
[DEFENSE]: Yes. We just can’t -- We can’t be flippant about it. As you’ve
indicated in your answers before, I assume you mean that, you know, you
want something of substance.
[LUMPKINS]: Yeah, it can’t be because that’s the only recourse.
[DEFENSE]: Right. Okay. And I think society, especially as recognized in
this state and other states, as a society, we don’t want to punish people who
do not know, because of some mental disease or defect, that they don’t
know the difference between right and wrong. Is that a fair statement?
[LUMPKINS]: Uh-huh.
[DEFENSE]: Okay. And in that same vein, can you see that there are some
circumstances in which people actually physically go through acts that
cause people to die, or cause things to happen that are criminal offenses,

201a

Cade 62
and that they don’t know what they are doing because of some mental
disease or defect?
[LUMPKINS]: I agree it’s possible.
[DEFENSE]: It’s possible. Okay. And that we have to sometimes look at all
the circumstances surrounding an event and possibly rely on other people
who study, make a profession of studying the mind; is that a fair statement?
[LUMPKINS]: It’s why I said it’s compelling.
In addition, during earlier questioning by the State, Lumpkins evinced his
understanding of Appellant’s burden of proof regarding the insanity defense and
unequivocally stated that he would apply it if selected to serve. After informing Lumpkins
that Appellant might assert an insanity defense, the prosecutor discussed the concept of
legal insanity and explained Appellant’s preponderance burden of proof. The prosecutor
then probed Lumpkins’s ability to follow the law, if Appellant raised an insanity defense:
[PROSECUTION]: [I]f [insanity] were the defense, could you really use
your best judgment in determining whether or not the insanity is bona fide
or bunk?
[LUMPKINS]: Well, that would depend on the preponderance of the
evidence to support it.
[PROSECUTION]: Sure.
[LUMPKINS]: In that event, yes.
After discussing other topics related to the insanity determination, the prosecutor returned
to Appellant’s preponderance burden of proof:
[PROSECUTION]: If you find the defendant not guilty, he goes home.
Okay? And when I talked to you earlier about insanity, the way insanity

202a

Cade 63
works is that, if you do believe [by] a preponderance of the evidence [that]
the defendant did not know that what he was doing was wrong at the time
of the commission of the offense, you have to find him not guilty by reason
of insanity. That’s what your oath is going to require you to do. If you
believe that, will you do it?
[LUMPKINS]: Yes.
Lumpkins’s entire voir dire contains sufficient evidence to support the trial court’s
ruling. Davis, 329 S.W.3d at 807. Thus, Appellant has not demonstrated that the trial court
erred in overruling his challenge for cause to Lumpkins. Point of error eighteen is
overruled.
B. Askins
Defense counsel argued that Askins would require a higher burden of proof than the
law required on the issue of insanity. The record of his individual voir dire shows that
Askins vacillated about his ability to apply the preponderance standard, should Appellant
have raised an insanity defense.
When questioned by the State, Askins asserted that he could find Appellant not
guilty by reason of insanity if Appellant raised that defense at trial and proved it by a
preponderance of the evidence. When defense counsel asked Askins whether he had any
problems with the idea of an insanity defense, the venire member retreated from his
original position:
[ASKINS]: You know, it’s hard for me to consider. I mean obviously there
are always circumstances that can bring that into play. But, honestly, it is
hard for me to consider the insanity defense, so I mean.

203a

Cade 64
[DEFENSE]: Would you, since our burden of proof is not to the level of
beyond a reasonable doubt on insanity, it’s by a preponderance which is just
kind of like more likely than not, like a -- If you’re using percentages, it
would be like 50.001 percent that we have to get to. Would you require the
defense to have a higher burden of proof in the insanity issue because it
would be so hard for you to consider?
[ASKINS]: Yeah.
[DEFENSE]: You would?
[ASKINS]: Yeah, I would.
Defense counsel then requested a recess and challenged Askins for cause. The trial court
denied the challenge and after recalling Askins to the stand, addressed him directly:
[COURT]: Mr. Askins, the burden on the defense on the issue of insanity,
it’s their burden, it’s by a preponderance of the evidence. The legal
definition of preponderance of the evidence is the greater weight of the
credible and believable evidence. That’s their burden.
[ASKINS]: Okay.
[COURT]: Can you accept that burden?
[ASKINS]: Yes.
[COURT]: Okay. Would you apply that burden -[ASKINS]: Yes.
[COURT]: -- in answering the issue on insanity?
[ASKINS]: Yes.
After the trial court asked Askins to step outside, defense counsel renewed the challenge.
The trial court again denied it.

204a

Cade 65
The trial court did not abuse its discretion. To the extent Askins vacillated about his
ability to apply a preponderance standard to Appellant’s insanity defense, the trial judge
was in the best position to determine whether the venire member would set aside his views
and honestly and truthfully follow the juror’s oath. Burks, 876 S.W.2d at 893. In his final
statement on the issue, Askins asserted that he could, and would, follow the law. The trial
judge was entitled to believe him, and we defer to that belief. See Gonzales v. State, 353
S.W.3d 826, 836 n.7 (Tex. Crim. App. 2011). Point of error twenty-one is overruled.
C. Hernandez
Defense counsel argued that Hernandez could not follow the law regarding the
insanity defense and would elevate the defense’s burden of proof. The record shows that,
under questioning by the State, Hernandez unequivocally stated that she could and would
apply the preponderance standard if Appellant raised an insanity defense and would acquit
him if he satisfied that standard. When questioned by defense counsel, Hernandez again
agreed that Appellant’s burden of proof regarding the insanity issue was a preponderance
standard. However, in response to a follow-up question, Hernandez manifested some
confusion about the possible evidentiary burdens and the differences between them:
[DEFENSE]: Well, let me ask it to you this way. Is [preponderance] going
to be the same burden as like clear and convincing evidence or by proof
beyond a reasonable doubt to you?
[HERNANDEZ]: Beyond a reasonable doubt.
[DEFENSE]: Well, you shook your head and you said proof beyond a
reasonable doubt, so I didn’t understand what that meant to you.

205a

Cade 66
[HERNANDEZ]: It’s beyond a reasonable doubt.
[DEFENSE]: Okay. So you’re saying that a preponderance of the evidence
is going to have to be proven to you beyond a reasonable doubt?
[HERNANDEZ]: Yes.
Defense counsel clarified that preponderance of the evidence was an evidentiary
standard of its own and explained where it stood in relation to the clear-and-convincing
and reasonable-doubt evidentiary burdens. After stating that the law required Appellant to
prove insanity by a preponderance of the evidence, counsel returned to his original
question:
[DEFENSE]: [O]kay, would you be able to hold us to that burden, or do you
think it’s going to take more like clear and convincing evidence or proof
beyond a reasonable doubt?
[HERNANDEZ]: I could hold you to that burden.
[DEFENSE]: You could -- I’m sorry?
[HERNANDEZ]: I could do that by a preponderance.
Defense counsel then asked Hernandez for her thoughts on psychiatrists and
psychologists. When Hernandez responded, “There needs to be more like evidence from
different doctors,” this exchange followed:
[DEFENSE]: Okay. So if we were to bring you one doctor and you believed
him, by a preponderance of the evidence, that our client was insane at the
time of the offense, is that going to be sufficient for you, or are you going to
need more than that?
[HERNANDEZ]: I think I’ll need more than that.

206a

Cade 67
[DEFENSE]: So you’re going to -- And this is where we have to use the
terms biased and prejudiced.
[HERNANDEZ]: That’s fine.
[DEFENSE]: To some degree, you’re going to have a bias against the
defense because you’re going to require, even if you believe that one doctor
by a preponderance of the evidence, you’re going to require more than that;
is that correct?
[HERNANDEZ]: Yes, just to be on the safe side.
[DEFENSE]: And that was a yes; is that correct?
[HERNANDEZ]: Yes, sir.
[DEFENSE]: Okay. And as I’ve explained to you, you know, I’ve told you
in that situation you believe that expert, okay, and you believe him and you
believe that we’ve proven our case by a preponderance of the evidence.
But what you’re telling me is, even though you believe that, and you
believe it by a preponderance of the evidence, you’re going to require more,
correct?
[HERNANDEZ]: He needs to gain my -- I need to be able to, you know, I
need to be able to trust him. You know, I need to see like what kind of
history that doctor has and all that.
[DEFENSE]: Okay. Well, I’m telling you, okay, I’m telling you right now
that you believe him. Okay? And you believe him -[HERNANDEZ]: So you’re telling me that I believe him.
[DEFENSE]: Yeah, and I’m saying -[HERNANDEZ]: would say I believe him.
Evidently uncertain whether Hernandez understood the hypothetical or dissatisfied
with her answer, defense counsel re-emphasized the assumptions he was asking Hernandez

207a

Cade 68
to make, then continued,
[DEFENSE]: And you’ve indicated to me that, in that situation, you’re
going to require more than one doctor. Is that still -[HERNANDEZ]: Yes. If it’s possible, yes. But I mean if he already gained
my trust and has more -- the balance is more on this side, like it’s better.
[DEFENSE]: Let me just -- The trust and everything, that’s something
that’s personal to you. Okay.
[HERNANDEZ]: Okay.
[DEFENSE]: All I can tell you is what the law says. And I’m now trying to
put you in a situation where, under the law, we’ve proven to you by a
preponderance of the evidence -[HERNANDEZ]: Yes.
[DEFENSE]: -- that he has proven that he was insane by the preponderance
of the evidence. Just that burden, okay?
[HERNANDEZ]: Okay.
[DEFENSE]: And what you have indicated to me is that, given that
situation, you would have a bias against -[HERNANDEZ]: Well, if it’s by law, then I need to follow the law.
After observing that it was everyone’s natural tendency to say that she could follow
the law, counsel posed the hypothetical to Hernandez again and asked what her verdict
would be. Hernandez responded that, “I always go with whatever the law says.” Counsel
continued to press Hernandez:
[DEFENSE]: So you understand what I’m getting at here, okay?
[HERNANDEZ]: Uh-huh.

208a

Cade 69
[DEFENSE]: I’m telling you that we’ve proven to you by the
preponderance of the evidence -[HERNANDEZ]: You’ve already proven it to me.
[DEFENSE]: And I want to know, what would your verdict be in that
situation?
When the prosecutor objected that the question had already been asked and answered, the
trial court stated, “He can ask it again. He can ask it for three more minutes. I’ve heard -I’ve heard what she said.” When defense counsel asked Hernandez for her answer, she
stated, “If it’s already been proven, then yes, I’ll go with that.” Defense counsel concluded
his voir dire and immediately afterward challenged her for cause. The trial court denied the
challenge.
The trial court did not abuse its discretion. Hernandez repeatedly stated that she
would hold Appellant to a preponderance standard regarding his insanity defense. To the
extent that Hernandez’s answers sometimes suggested she would hold Appellant to a
higher burden, the record supports a finding that those responses were based on her
temporary misapprehension of the law or confusion over defense counsel’s hypotheticals.
Further, the trial judge was in the best position to evaluate Hernandez’s demeanor and
responses. See Davis, 329 S.W.3d at 807. We extend particular deference to the trial
judge’s decision in these circumstances. See id. Point of error twenty-two is overruled.
D. Morgan, Hilburn, Langdon, and O’Con
Defense counsel challenged Morgan, Hilburn, Langdon, and O’Con solely due to

209a

Cade 70
certain written responses they gave on the juror questionnaire, arguing that the answers
showed that these veniremembers would automatically vote for the death penalty. The trial
court did not abuse its discretion in overruling Appellant’s challenges for cause to these
four prospective jurors.
While a juror who would automatically vote for the death penalty can be
challengeable for cause once a proper basis is established, Appellant failed to establish the
proper bases to challenge these veniremembers for cause. To establish those bases,
Appellant had to show that “the veniremember[s] understood the requirements of the law
and could not overcome [their] prejudice well enough to follow the law.” Gardner, 306
S.W.3d at 295. The requirements of the law are explained during voir dire 18 and after the
questionnaire or juror card is answered.19 As a result, a veniremember cannot be
sufficiently questioned regarding possible prejudice revealed in the questionnaire or during
voir dire without, at least, some minimum amount of interaction on the part of the
veniremember during voir dire.

18

See, e.g., Cardenas v. State, 325 S.W.3d 179, 185 86 (Tex. Crim. App. 2010) (stating
that the trial judge, prosecutor, and defense attorney explained the requirements of the law
applicable to the case to the venire panel during voir dire); Barnard v. State, 730 S.W.2d 703,
715 (Tex. Crim. App. 1987) (holding that the trial judge did not err by conducting a general voir
dire before individual voir dire in a capital case because the defendant was allowed to
individually voir dire veniremembers regarding the law of capital murder); Martinez v. State, 867
S.W.2d 30, 35 (Tex. Crim. App. 1993) (same).
19

See, e.g., Garza v. State, 7 S.W.3d 164, 166 (Tex. Crim. App. 1999) (noting that written
questionnaires are not a formal part of voir dire proceedings and, in some cases, questionnaires or
juror information cards can be submitted “long in advance of voir dire”).

210a

Cade 71
Therefore, because Appellant solely relied on their questionnaire answers in
challenging Morgan, Hilburn, Langdon, and O’Con for cause, he could not have
established proper bases for challenging these veniremembers, and it was within the trial
court’s discretion to determine that Appellant did not satisfy his burden to show that the
challenges were proper. See Garza, 7 S.W.3d 164, 166 (Tex. Crim. App. 1999). Points of
error twenty-three, twenty-five, twenty-nine, and thirty-three are overruled.
E. Kessels
Defense counsel argued that Kessels would automatically impose the death penalty
if Appellant were convicted of capital murder. At trial, counsel alluded to a portion of
Kessels’s voir dire testimony, in which counsel paraphrased Kessels as “say[ing]
something about that he would start out at a death penalty and that it would take a lot of
thinking for him to get back to neutral.” The trial court denied Appellant’s challenge.
In support of his argument, Appellant directs us to a portion of Kessels’s voir dire
by the State. The prosecutor had begun to discuss the future-dangerousness special issue.
He had explained that it was permissible for a juror to answer the future dangerousness
issue “yes” based on the circumstances of the offense, if the juror believed that the
circumstances so warranted. However, the prosecutor had also emphasized that the juror’s
answer to the future dangerousness issue could not be automatic. Although Kessels
answered “yes” when the prosecutor asked whether he could follow the process, the
prosecutor noted hesitation in Kessels’s response. Noting the unfamiliarity of the special

211a

Cade 72
issues to most jurors, the prosecutor asked Kessels to explain. Kessels responded:
[KESSELS]: When you said that I have to not really be able to answer
question -- Special Issue 1 until you’ve had the burden of proving it.
[PROSECUTOR]: Okay.
[KESSELS]: I really just have a general belief that if someone commits,
what you’re saying, a multiple murder, a multiple stabbing murder, that
there inherently may be something in them that’s going to make me answer
that yes.
[PROSECUTOR]: Okay.
[KESSELS]: So that might be something that I would have to work on to
get a more neutral playing field before that started.
Appellant based his challenge on these statements.
The trial court did not abuse its discretion in denying Appellant’s challenge for
cause to Kessels. The record shows that Kessels made the complained-of statements
before the law was fully explained to him. Following Kessels’s statements, the prosecutor
again noted jurors’ general unfamiliarity with capital-sentencing procedures and explained
the second special issue. The prosecutor then presented a hypothetical to help Kessels
understand the special issues’ interaction and why jurors should not automatically answer
them a certain way, even when a capital-murder conviction involved multiple murders.
The prosecutor began by describing the bare facts of a hypothetical capital murder
involving two victims

facts from which, without additional information, a jury might

reasonably draw negative inferences concerning the special issues (i.e., that the death
penalty should be assessed).

212a

Cade 73
But the prosecutor then gave Kessels various examples of evidence that might be
presented only at the punishment phase and that might lead jurors to answer the special
issues in a way that would result in a life sentence without the possibility of parole.
Afterward, the prosecutor questioned Kessels as follows:
[PROSECUTOR]: And can you see how not having heard all the evidence
[yet], the answer has to start out no on Special Issue 1 until we prove it
otherwise and until you’ve kept an open mind and heard all the evidence?
Does that make sense?
[KESSELS]: It does.
[PROSECUTOR]: Okay. Does that clear up your hesitation?
[KESSELS]: Yes. Great explanation.
Kessels subsequently asserted that the procedure and rationale surrounding the special
issues made sense to him, and that he had no hesitation about being able to participate in
the process and keep an open mind until he heard all the evidence.
The record contains sufficient evidence to support the trial court’s ruling. Davis,
329 S.W.3d at 807. Point of error twenty-four is overruled.
F. Sturgeon
Appellant asserts that Sturgeon was challengeable for cause because he exhibited a
lack of candor in his written response to a questionnaire item concerning prior jury service.
Appellant relies on Franklin v. State, 138 S.W.3d 351, 354 55 (Tex. Crim. App. 2004),
asserting that when a potential juror withholds material information, it suggests bias.

213a

Cade 74
Question 45 of the juror questionnaire asked veniremembers whether they, or their
spouses, had ever been jurors in a civil or criminal case. If the venire member checked
“yes,” the question directed the individual to provide the year and type of case, verdict,
punishment amount, and whether the judge or the jury set punishment. Sturgeon checked
“yes.” He wrote that, while he could not recall the year, he had been a juror in a criminal
case in which the jury had acquitted the defendant.
During the State’s voir dire, the prosecutor asked Sturgeon about his jury service in
the case Sturgeon had listed in response to Question 45. Sturgeon described it as a
pedophilia case and stated that the trial lasted three or four days. When the prosecutor
asked whether that was his first time serving on a jury, Sturgeon answered, “Something
like that. I mean, I served on a traffic violation jury in Garland.” Sturgeon subsequently
told the prosecutor that his service on the traffic violation case occurred “way before” his
service on the pedophilia case. When the defense questioned him, Sturgeon guessed that
he might have served on the pedophilia case in the late 1990s.
In challenging him for cause, defense counsel acknowledged that Sturgeon had
listed his jury service in the pedophilia case on the questionnaire, but noted that Sturgeon
had not included his service in the traffic case. Counsel argued that Sturgeon’s failure to
list his traffic-case service on the questionnaire reflected a lack of candor and suggested
that he would automatically vote for the death penalty.
Appellant’s reliance on Franklin is misplaced. Franklin concerned the standard of

214a

Cade 75
harm an appellate court should apply when a trial judge erroneously denies a mistrial that
the defendant sought on the grounds that a juror withheld material information during voir
dire. Id. at 355. In that context, we noted our previous holding that, “where a juror
withholds material information during the voir dire process,” the Sixth Amendment is
implicated because “the parties are denied the opportunity to exercise their challenges,
thus hampering their selection of a disinterested and impartial jury.” Id. at 354 (citing
Salazar v. State, 562 S.W.2d 480, 482 (Tex. Crim. App. [Panel Op.] 1978)).
Sturgeon did not withhold the information about his traffic-case jury service. In
fact, Sturgeon volunteered the information during his individual voir dire. Both parties had
an opportunity to question Sturgeon on the matter and make informed choices concerning
the exercise of their challenges. In addition, it was within the trial judge’s discretion to
determine that the information was immaterial. See Franklin v. State, 12 S.W.3d 473,
477 79 (Tex. Crim. App. 2000).
The record contains sufficient evidence to support the trial court’s ruling. The trial
court did not abuse its discretion in denying Appellant’s challenge for cause to Sturgeon
based on his alleged lack of candor on the juror questionnaire. Point of error twenty-six is
overruled.
G. Johnlouis
Defense counsel argued that Johnlouis’s response to his hypothetical showed that
she would automatically assess the death penalty. Counsel also asserted that Johnlouis

215a

Cade 76
would elevate Appellant’s burden of proof regarding the insanity determination because
she would require him to present an expert in support of an insanity defense. We find no
abuse of discretion because the record of Johnlouis’s voir dire supports the trial court’s
ruling.
During the State’s voir dire, the prosecutor explained that Texas law provides two
sentencing options for capital murder: (1) life without parole or (2) death. Johnlouis agreed
that she believed the death penalty was appropriate “in certain circumstances” but was
open to both sentencing options. After exploring topics primarily relevant to the guiltinnocence determination, the prosecutor returned to the subject of punishment and
Johnlouis’s ability to answer the special issues based on the law and evidence, even if it
meant that a death sentence would result. Johnlouis stated that she would be comfortable
participating in a process that could result in a defendant receiving a death sentence, but
Johnlouis repeatedly emphasized that her answers to the special issues would depend on
the evidence. Johnlouis also asserted that her answers to the special issues would not be
dictated by the fact that the jury had found Appellant guilty of capital murder.
During Appellant’s voir dire, defense counsel presented Johnlouis with a
hypothetical, asking her to assume that she sat on a jury that had just found a defendant
guilty of capital murder. Counsel emphasized that by finding the defendant guilty, the jury
had necessarily determined that the defendant had “[k]nowingly and intentionally caused
the death of two people. All right. Meant to do it, intended to do it. It wasn’t a mistake. It

216a

Cade 77
wasn’t an accident. The person wasn’t insane, okay?” Following that introduction, defense
counsel asked Johnlouis to tell him “what [her] thoughts are on the death penalty at that
point.” Johnlouis responded, “Again, I have to hear --” before being cut off by the
prosecutor, who objected that defense counsel had asked an improper commitment
question. After the court overruled the objection and defense counsel asked for Johnlouis’s
answer, she asked him to “[g]ive [her] the question . . . again. There’s so much going on.”
Counsel repeated the hypothetical, again emphasizing what the jury had necessarily
determined by finding the defendant guilty and asking for Johnlouis’s “thoughts . . . on the
death penalty at that point.” Johnlouis answered, “The death penalty because he did it, you
know, and there was no -- he did it.”
Apparently believing that Johnlouis did not understand the issue or his question,
defense counsel explained the differences in the jury’s inquiry at the guilt-innocence phase
versus the punishment phase of trial, focusing on the special issues. He then presented the
hypothetical again:
[DEFENSE]: And what were your thoughts on the death penalty at that
point?
[JOHNLOUIS]: And Special [Issue] Number 1 has been -[DEFENSE]: No, I’m just saying -- that’s what I’m saying, you’re just at
the guilt/innocence portion, okay?
[JOHNLOUIS]: I’m just at the guilt/innocence?
[DEFENSE]: Yeah, you found the person guilty of capital murder.

217a

Cade 78
[JOHNLOUIS]: Guilty? Okay.
[DEFENSE]: Okay. So what would your thoughts be on the death penalty at
that point?
[JOHNLOUIS]: Again, if they -- if he’s guilty or she’s guilty, then if
they’re imposing the death penalty, then they’ll impose the death penalty, I
guess.
[DEFENSE]: So your belief is that at that phase of the trial the person ought
to get the death penalty, is that your position?
[JOHNLOUIS]: Yeah. Yeah.
Defense counsel then abandoned his hypothetical and proceeded to discuss Special Issue
Number 1:
[DEFENSE]: Okay. And so when you’re going through that special issue,
would you agree with me that you would have to be convinced beyond a
reasonable doubt that this defendant would commit criminal acts of
violence that would constitute a continuing threat to society, correct?
Would you agree with me on that?
[JOHNLOUIS]: Again, I need to hear, you know, more than just he’s -- you
know, what he did. I mean what happened, you know, the circumstances of
what happened.
Johnlouis continued:
[JOHNLOUIS]: I don’t think I would say that he would be a threat until I
can understand or hear, you know, some of the things that’s happening that
he did or whatever. I -- I can’t make that decision at this point.
[DEFENSE]: And I’m not asking you to make the decision. What I’m trying
to -[JOHNLOUIS]: Would he be a threat? Until I get the evidence, I’m not
sure, you know. I have to weigh what’s going on with him, you know. I

218a

Cade 79
don’t -- and then try to put that into perspective. I’m not sure if he would be
a threat to society. I don’t, you know -[DEFENSE]: And that’s what I’m getting at.
[JOHNLOUIS]: Yeah.
The record supports a finding that Johnlouis was confused by counsel’s
hypothetical, which asked for her “thoughts” on the death penalty rather than whether she
could follow the law, and that her answers resulted from that confusion. Johnlouis’s
subsequent statements regarding Special Issue Number 1, and her testimony during the
State’s voir dire, manifested her understanding that, by law, a death sentence cannot be the
automatic consequence of a capital-murder conviction. They similarly manifested her
willingness to follow the law. In any event, the trial judge was in the best position to
determine whether Johnlouis would set aside her personal views and honestly and
truthfully follow the juror’s oath. Burks, 876 S.W.2d at 893. We defer to his
determination.
We next consider Appellant’s assertion that Johnlouis would elevate his burden of
proof by requiring him to present an expert witness to support his insanity defense. When
defense counsel initially began discussing the insanity defense and the applicable burden
of proof, he explained that the law did not require Appellant to present expert testimony,
and that Appellant could prove his defense solely with lay testimony. Johnlouis stated that
she could find Appellant not guilty by reason of insanity based on the testimony of one
psychologist, if she believed the testimony and it established legal insanity by a

219a

Cade 80
preponderance of the evidence. Johnlouis also stated that she could find Appellant not
guilty by reason of insanity by a preponderance of the evidence, based on a lay witness’s
testimony and without expert testimony. But when defense counsel began to transition to
another topic, Johnlouis asked for clarification regarding the means by which Appellant
could prove legal insanity. Defense counsel explained again that Appellant could prove his
defense only with lay testimony, if he wished. Afterward, Johnlouis stated that she
understood and had no problem with a lack of expert testimony.
Defense counsel later asked Johnlouis if she had any questions. Johnlouis expressed
some difficulty with the idea of Appellant proving insanity solely through lay testimony: “I
don’t quite agree -- I mean, understand, maybe. I don’t agree with the non-expert delivery.
That’s a problem with me, yeah.” She continued,
[JOHNLOUIS]: You know, I -- personally, I feel that you have to have
somebody -- I mean, a cousin or somebody -[DEFENSE]: Okay.
[JOHNLOUIS]: -- saying that they’re insane or whatever.
[DEFENSE]: So you’re saying that you would need an expert there?
[JOHNLOUIS]: I think I would probably want one, you know, just to, you
know, and run tests or whatever on the -[DEFENSE]: And -- and -[JOHNLOUIS]: Yeah, because, you know, you can’t just have me -[DEFENSE]: And that’s

220a

Cade 81
[JOHNLOUIS]: -- come up and say I’m crazy when I’m not.
Defense counsel explained the law again and referred to Johnlouis’s earlier assertion that
she could find Appellant not guilty by reason of insanity if he proved it by a
preponderance of the evidence through a lay witness. Counsel told Johnlouis that if her
answer had changed, then she needed to tell him. Johnlouis responded, “[I]f that’s what
the law says, then we have to follow the law, you know, so that’s why I said I could do it.
But just because the law -- not that I agree with it, but because of the law.” When counsel
continued to press her on the point, Johnlouis stated, “Well, I -- I just said -- I don’t -- I
personally don’t agree with that but, you know, if that’s the law, that’s the law, you
know.” In further discussion, Johnlouis was emphatic about her ability to set aside her
personal disagreement and follow the law, now that she understood it.
To the extent that Johnlouis gave inconsistent or unclear statements, the trial court
was in the best position to determine whether she would set aside her personal views and
honestly and truthfully follow the juror’s oath. Id. We defer to its determination. Point of
error twenty-seven is overruled.
H. Tyler
Appellant argues that Tyler was challengeable because (1) she would require an
expert to testify in support of an insanity defense, and (2) she would impose a higher
burden of proof than the law required regarding the insanity determination. The trial court
did not abuse its discretion in overruling Appellant’s challenge for cause on these bases.

221a

Cade 82
During the State’s voir dire, the prosecutor informed Tyler that Appellant might
raise an insanity defense at trial. The prosecutor explained the definition of legal insanity,
Appellant’s preponderance burden of proof, and that Appellant need not present expert
testimony or a certain number of witnesses. Tyler unequivocally stated that she could
follow the law in deciding whether Appellant was not guilty by reason of insanity.
The exchange that formed the basis of Appellant’s challenge to Tyler came at the
end of the defense’s voir dire when defense counsel directed Tyler’s attention to Question
38 of the juror questionnaire. Question 38 informed potential jurors that a person with
mental illness can receive life without parole or the death penalty for capital murder and
asked veniremembers what they thought. Tyler had written, “I don’t know about that[,]
sometime[s] I think they [know] what they are doing.” When defense counsel asked Tyler
what she meant by her answer, she explained,
[TYLER]: Sometimes people are mentally ill but they -- sometimes they be
in their right mind and I think sometimes they know what they be doing,
and then sometimes if they’re not on their medication, they don’t know.
[DEFENSE]: Well, would you -- you’re -- I think that -- that -- let me ask
you, would you be able to listen to evidence about the insanity defense and
if you believed that [Appellant] . . . was insane at the time of the offense,
would you be able to say not guilty by reason of insanity?
[TYLER]: If you prove it to me.
[DEFENSE]: What kind of -- of proof would you be looking for in a -- in
an insanity defense, do you know?
Do you have any idea about that?

222a

Cade 83
[TYLER]: I think that you would have to have an expert witness to testify
or something to say that he’s insane, something showing that he wasn’t on
his medication at the time or if he’s on medication.
I mean, you have to prove to me that he was insane.
[DEFENSE]: Would we have to prove that to you more than as it was
explained to you, more than [by] a preponderance of the evidence?
[TYLER]: I think so.
Defense counsel concluded his voir dire directly thereafter and challenged Tyler
for cause based on the exchange set forth immediately above. After hearing the parties’
arguments for and against the challenge, the trial court recalled Tyler to the stand and
questioned her directly:
[COURT]: [Y]ou understand that the law requires that they prove [insanity]
by a preponderance of the evidence, -[TYLER]: Yes, right.
[COURT]: -- okay?
And you understand that’s the law.
[TYLER]: Right.
[COURT]: Now preponderance of the evidence is not as great a burden as
beyond a reasonable doubt.
You understand that?
[TYLER]:

(Nods head.)

[COURT]: In fact, one of the attorneys said, you know, 50.1 percent to 49.9
percent, or whatever you want to -- just barely tipping the scale one way or
another.

223a

Cade 84
[TYLER]: Right.
[COURT]: That’s the burden of proof that the defense has to prove to
you . . . [that] the defendant’s insane -- [was] insane at the time of the
offense.
And when [the prosecutor] was talking to you, you said [y]es, you
understood that and you could.
And I think you gave [defense counsel] a different answer, in that
you said, well, you would require more of a burden of proof from the
defense than a preponderance of the evidence. I mean, [those weren’t] your
exact words, but that’s what you indicated.
Is that the way you feel?
Now that you know what the law is, can you follow the law or would
you require them [to meet] a higher burden of proof than the law imposes?
[TYLER]: No, I could follow the law. If he proved that to a certain degree
that -[COURT]: By a preponderance of the evidence.
[TYLER]: Right. That he was insane at the time?
[COURT]: Yeah.
[TYLER]: I could go along with that.
[COURT]: Okay.
[TYLER]: I could follow the law.
The trial court thereafter denied the challenge for cause.
We find no abuse of discretion. To the extent Tyler gave contradictory answers
concerning her ability to apply a preponderance standard to Appellant’s insanity defense

224a

Cade 85
and whether she would require Appellant to present expert testimony, the trial judge was
in the best position to determine whether she would set aside her views and honestly and
truthfully follow the juror’s oath. Burks, 876 S.W.2d at 893. The trial judge was entitled
to believe Tyler when she told him that she could and would follow the law; we defer to
that belief. See Gonzales, 353 S.W.3d at 836 n.7. Point of error twenty-eight is overruled.
I. Sowden
Appellant challenged Sowden on the grounds that she would automatically vote for
the death penalty and hold the defense to a higher burden of proof than the law required
on the issue of insanity. The trial court did not abuse its discretion by denying Appellant’s
challenge to Sowden on these grounds.
Regarding the allegation that Sowden would automatically assess the death
penalty, Appellant relies on a response she gave during the State’s voir dire. He asserts
that Sowden stated she would be “inclined” to assess the death penalty if a person were
found guilty of a capital murder involving the killings of two people. See T EX. P ENAL
C ODE § 19.03(a)(7). Appellant acknowledges that Sowden went on to say that she would
listen to all the evidence, but he contends that her initial response reflected her true
feelings. We find no abuse of discretion, as the record supports the trial court’s ruling.
Before Sowden made the statement at issue, the prosecutor had begun to explain
the law concerning capital murder. Sowden stated that she had previously assumed that a
capital-murder conviction automatically meant a death sentence. After learning more

225a

Cade 86
about capital-sentencing procedures, however, Sowden denied believing that everyone
convicted of capital murder should automatically receive the death penalty, no matter
what the punishment-phase evidence might show.
The prosecutor then asked Sowden to assume that she sat on a jury that had found
a defendant guilty beyond a reasonable doubt of a capital murder involving the deaths of
two people. The prosecutor emphasized that the jury had, therefore, necessarily found that
the killings were not accidental, but intentional. He asked Sowden, “And are you
automatically going to assess the death penalty or will you listen to the next phase of trial
and honestly apply those questions and see where the answer takes you?” Sowden replied,
“I might have some idea, but I will listen to the facts,” and, “That’s what will lead me.”
Appellant relies on Sowden’s statement, that she “might have some idea,” to
support his argument that she would automatically assess the death penalty. But the
prosecutor continued to question Sowden on this subject and obtained several definitive
answers that she would not automatically assess a death sentence. Sowden expressed her
belief in the integrity of the sentencing process and her willingness to maintain it,
asserting that she could “listen to everything and then . . . make [her] decision on what
[she] listened to.” When defense counsel asked Sowden what she had meant when she
told the prosecutor that she had “some idea,” Sowden responded, “Some idea -- what
you’re talking to me about is I have no facts yet on this case, so that’s when I say, I have
an idea what I would do, but I cannot tell you until I have all the facts exactly what I will

226a

Cade 87
do.” Sowden further explained, “If I have all the facts and I believe someone is guilty,
then I will go into it with those beliefs. I won’t have an idea at that point. I won’t -- it’s
hard for me to say without knowing all the details.” She asserted again that her answers to
the special issues would not be automatic: “When I walk in there, I will not say, [t]his
person should die. I mean, it could be life. I mean, when I step into the second part of this
-- after I hear everything, I can tell you.”
The entirety of Sowden’s voir dire shows that she made several unequivocal
assertions that she would not automatically vote for a death sentence but would consider
all the evidence and follow the law. To the extent any of her answers on that issue were
unclear or ambiguous, the trial court was in the best position to evaluate her demeanor
and responses. Davis, 329 S.W.3d at 807. We defer to the trial court’s ruling.
We next turn to Appellant’s contention that Sowden would hold Appellant to a
higher burden of proof on the insanity determination. During the State’s voir dire, the
prosecutor explained the concept of legal insanity and Appellant’s burden of proof.
Sowden stated that she could find Appellant not guilty by reason of insanity if he proved
insanity by a preponderance of the evidence. Sowden also stated that she could find
Appellant not guilty by reason of insanity on the testimony of one or several witnesses, so
long as the testimony convinced her by a preponderance of the evidence that Appellant
was insane at the time of the offense.
During Appellant’s voir dire, defense counsel also asked Sowden whether, if the

227a

Cade 88
defense proved insanity by a preponderance of the evidence through one witness, she
would have a problem finding Appellant not guilty by reason of insanity. Sowden
answered that she “would factor it in, certainly.” After explaining the preponderance
standard again, counsel repeated the question. Sowden responded, “If I believe that
person is a credible witness. I mean, if that person speaks to me in a manner that I believe
that person, then yes, I will believe he’s insane.”
Defense counsel argued that Sowden’s use of the word “credible” and her
intonation when saying it meant that she would elevate Appellant’s burden of proof.
Noting that credibility was part of the preponderance standard’s definition, the trial judge
denied the challenge. We find no abuse of discretion, as we have defined preponderance
of the evidence as the greater weight of credible evidence that would create a reasonable
belief in the truth of the claim. See Druery v. State, 412 S.W.3d 523, 540 (Tex. Crim.
App. 2013). Further, the trial judge was in the best position to evaluate Sowden’s
demeanor and responses. Davis, 329 S.W.3d at 807. Point of error thirty is overruled.
J. Evans
Defense counsel challenged Evans for cause on three grounds: (1) she would
automatically assess the death penalty, (2) she could not consider evidence about genetics
in answering the mitigation special issue, and (3) she did not understand and could not
follow the law regarding Appellant’s preponderance burden on insanity. The trial court
did not abuse its discretion in denying Appellant’s challenges for cause to Evans.

228a

Cade 89
Counsel based his first two reasons for challenging Evans on her juror
questionnaire answers. Counsel argued that, although Evans stated during voir dire that
she would change her questionnaire answers now that she had been educated about the
law, her demeanor led him to believe that she still held the views expressed in her
questionnaire and could not follow the law. Appellant does not direct us to any instance
from Evans’s voir dire in which she indicated that she understood the law, but she held
contrary personal views that she could not set aside, nor does our review reveal any. As to
her demeanor during voir dire when questioned about these issues, the trial judge was in
the best position to evaluate it, and we defer to his determination. Id.
Regarding the challenge related to his burden of proof on the insanity
determination, Appellant relies on an exchange that occurred during the defense’s voir
dire. When the prosecutor initially defined legal insanity and explained Appellant’s
preponderance burden of proof, Evans stated that she could find Appellant not guilty by
reason of insanity if the defense proved insanity by a preponderance of the evidence, even
if the evidence came through one witness. Evans also stated that she would not hold
Appellant to a higher burden than the preponderance standard. Near the end of
Appellant’s voir dire, defense counsel also defined legal insanity and explained
Appellant’s burden of proof. Counsel then gave Evans a hypothetical in the following
exchange:
[DEFENSE]: Okay. If whatever evidence was brought to you, even if it was
by one person, and the State did prove -- I mean the defense, excuse me, I

229a

Cade 90
misstated. -- the defense proved this defense of insanity by a preponderance
of the evidence, your verdict would be what?
[EVANS]: If the State did prove?
[DEFENSE]: No, I misstated.
[EVANS]: I mean if the defense did prove?
[DEFENSE]: Let’s start over, okay?
[EVANS]: Okay.
[DEFENSE]: Because I think I screwed it up. I explained the burden of
proof. This table has the burden of proof on insanity.
[EVANS]: Okay.
[DEFENSE]: The burden of proof is by a preponderance of the evidence. If
we, by one witness or whatever the witness says, and you believe this
witness by a preponderance of the evidence and the defense has met that
burden in your mind, what would your verdict be or what would you vote
for?
[EVANS]: I guess the insanity one?
[DEFENSE]: Uh-huh. You could find somebody not guilty by reason of
insanity?
[EVANS]: Yes.
Defense counsel argued that Evans’s demeanor during the foregoing exchange was
“very inquisitive,” as if she “wasn’t sure” and wanted someone to tell her how to respond.
The State countered that it had been clear that Evans was simply confused due to defense
counsel’s initial misstatement. The trial judge, who was in the best position to assess
Evans’s demeanor and responses, denied the challenge. We defer to his decision. Id. Point

230a

Cade 91
of error thirty-one is overruled.
K. Matthews
Defense counsel argued that Matthews “hesitated” during voir dire questioning,
which indicated that she could not follow the law on insanity and would hold the defense
to a higher burden than the law required. Appellant directs us to Matthews’s response
when the prosecutor asked whether she could find Appellant not guilty by reason of
insanity based on the testimony of one witness. Although Matthews answered, “Yes,” the
prosecutor indicated that he perceived some hesitation in her response. When he asked
whether the hesitation was because the decision would be distasteful, Matthews
answered, “No,” but stated that “it [would] take great pondering.” She continued, “It’s not
going to be a quick decision, in other words.”
The trial court did not abuse its discretion in denying the challenge for cause.
Matthews’s reference to “pondering” and subsequent clarification did not unequivocally
establish an inability to follow the law. See Moore, 999 S.W.2d at 407. Moreover, when
questioned by the defense regarding her ability to find Appellant not guilty by reason of
insanity on a preponderance of the evidence, Matthews again asserted that she could do
so. Matthews’s voir dire sufficiently supports the trial court’s ruling. See Davis, 329
S.W.3d at 807. Point of error thirty-two is overruled.
L. Adair
Defense counsel raised three challenges for cause to Adair, all of which the trial

231a

Cade 92
court denied. We find no abuse of discretion.
First, defense counsel argued that Adair would automatically vote for the death
penalty. Defense counsel acknowledged that, during the State’s voir dire, Adair had
indicated that he could and would follow all the law applicable to sentencing, but defense
counsel asserted that, during the defense’s voir dire, Adair “differentiated and went back
and forth and vacillated on his true feelings,” such that counsel believed Adair’s “true
opinion [was] that if somebody kills somebody, that they deserve to die.”
After reviewing Adair’s entire voir dire, we disagree that he took positions during
defense questioning that were materially different than the answers he gave during the
State’s questioning. But even if we were to accept Appellant’s argument, we give
particular deference to the trial court’s ruling when a prospective juror vacillates or gives
equivocal or contradictory answers concerning his ability to follow the law. Gardner, 306
S.W.3d at 295.
Second, defense counsel argued that Adair would hold Appellant to a higher
burden of proof than the law required regarding insanity. Defense counsel based his
assertion on Adair’s response when the prosecutor questioned him about his answer to
Question 38 of the juror questionnaire. Question 38 informed potential jurors that a
person with mental illness can receive life without parole or the death penalty for
committing capital murder, then asked for the juror’s thoughts. Adair wrote, “Life
without parole no death penalty on a person with mental illness.” The prosecutor

232a

Cade 93
questioned Adair as follows:
[PROSECUTOR]: First of all, would you agree with me that anyone can
just claim they have a mental illness?
[ADAIR]: Yes.
[PROSECUTOR]: Okay. Would you agree with me that mental illness
exists on a range of very mild, like a person with mild depression, all the
way up to severe where a person just doesn’t even understand the difference
between right and wrong?
[ADAIR]: Right.
[STATE]: Okay. Now, are you saying to me that, no matter what the extent
of the mental illness is, that you’ll never consider the death penalty, or are
you saying if they are on a far end of that scale that you wouldn’t consider
it?
[ADAIR]: No, on a far end.
This line of questioning and Adair’s “far end” response concerned a punishment issue
rather than the affirmative defense of insanity. Appellant identifies nothing else in Adair’s
voir dire suggesting that he would elevate the burden of proof regarding the insanity
determination, and we find nothing in our independent review.
Third, defense counsel asserted that Adair’s testimony when questioned about his
written response to Question 17 of the questionnaire showed that he would require any
evidence of remorse to come through Appellant’s testimony. Question 17 asked jurors
what would be important to them in deciding whether a person received a death sentence
rather than a life sentence in a capital-murder case. In pertinent part, Adair indicated that
a lack of remorse would be significant to him.

233a

Cade 94
The prosecutor informed Adair that a defendant has a constitutional right not to
testify and that if the defendant elects not to testify, a juror may not hold that choice
against him. Adair stated that he could and would follow the law. When defense counsel
questioned Adair, counsel noted his mention of remorse in response to Question 17.
Defense counsel asked whether Adair would require a defendant “to actually testify and
say, look, I’m sorry I did that, or something like that, in the punishment stage?” Adair
said that he would not, but he struggled to explain:
No, I think the remorse would -- I don’t know if that’s a state of mind or it
goes along with like their moral [culpability]. I think it’s, you know, like
they have no feeling when they do it, you know, like they are not
remorse[ful] about killing another human being.
Defense counsel then suggested that a defendant’s testimony might be the only
way for him to provide evidence of remorse:
[DEFENSE]: Okay. Do you see where I’m coming from? To actually -- I
mean the way we give information to each other is either through, you
know, some kind of gesture, words, or writings.
[ADAIR]: Right, right, right. I guess -[DEFENSE]: And, so, I guess my question is, you know, how would you
receive the information about if a person was remorseful, you know, if you
didn’t require him to testify or give you some information about remorse,
like I’m sorry or something?
[ADAIR]: I guess explaining through the act of violence, I guess that would
be -[DEFENSE]: Are you saying that, during the act of violence, they would
have to say, I’m sorry, or something like [that]?

234a

Cade 95
[ADAIR]: No, just, or their mental, trying to say their state of mind at the
time of doing the crime.
[DEFENSE]: Okay. I guess I’m confused. I am totally confused in that
sense.
[ADAIR]: I’m a little confused myself.
When defense counsel again asked Adair to explain how one would know whether
someone was remorseful or not, Adair responded, “I guess through their actions, maybe
you could tell. I don’t know, if they were crying or I guess however you could tell
whether they are remorse[ful] or not.”
It was within the trial court’s discretion to deny Appellant’s challenge for cause.
The proponent of a cause-based challenge must show that the challenge is proper and
does not meet this burden until, among other things, he demonstrates that the law was
explained to and understood by the venire member. Davis, 329 S.W.3d at 807. When the
prosecutor explained a defendant’s constitutional right not to testify, Adair stated that he
could and would follow the law. When defense counsel discussed the topic, it was in the
context of how jurors could ascertain whether a defendant felt remorse. Defense counsel
did not explain to Adair that jurors could determine whether a defendant felt remorse at
the time of the offense by drawing reasonable inferences from circumstantial evidence
presented at trial. See Snowden v. State, 353 S.W.3d 815, 823 24 (Tex. Crim. App. 2011).
Rather, it seems that counsel inaccurately implied through his questions that only the
defendant, by testifying, could supply such evidence. Despite the apparent misdirection,

235a

Cade 96
Adair evinced an understanding that circumstantial evidence may provide a basis for
inferring remorse. Appellant points to nothing in the record to show that Adair could not
or would not consider such circumstantial evidence, if it were offered, or that he would
require evidence of remorse to come from Appellant himself. Point of error thirty-four is
overruled.
M. Koshy and Newton
Because Appellant received two additional peremptory strikes, he can demonstrate
harm only by showing that the trial court erroneously denied at least three of his
challenges for cause to the seventeen veniremembers at issue in points of error eighteen
through thirty-four. See Chambers, 866 S.W.2d at 23. We have reviewed Appellant’s
challenges for cause to fifteen of those potential jurors and found no error by the trial
court. Accordingly, even if we assume that the trial court erred in denying Appellant’s
challenges for cause to the two remaining veniremembers at issue, Koshy and Newton,
Appellant cannot show harm on appeal. See id. Points of error nineteen and twenty are
overruled.
VIII. V OIR DIRE—R EMAINING POINTS OF ERROR
In point of error thirty-five, Appellant alleges that the trial court erred by not
permitting defense counsel to ask venire member Morgan about the types of evidence she
might consider mitigating. During the State’s voir dire, the prosecutor explained to
Morgan that jurors must be able to consider all of the evidence, including evidence of the

236a

Cade 97
victims’ experience of the offense, when answering the mitigation special issue. See Art.
37.071, § 2(e)(1). When questioning Morgan, defense counsel referred to the State’s point
about considering the victims’ perspective. Defense counsel asserted that evidence
concerning the victims’ experience of the offense could have mitigating or aggravating
value. Defense counsel asked Morgan if she could foresee circumstances in which such
evidence could be mitigating. After Morgan responded that she could, defense counsel
asked her to give examples, at which point the State successfully objected.
We review a trial court’s ruling that limits voir dire questioning for an abuse of
discretion. Hernandez v. State, 390 S.W.3d 310, 315 (Tex. Crim. App. 2012). Appellant
acknowledges that we have previously held that questions such as the one defense
counsel posed are improper. See id. (“Whether a juror considers a particular type of
evidence to be mitigating is not a proper area of inquiry.”). To the extent Appellant argues
that our precedent is inconsistent with the holding of Lockett v. Ohio, 438 U.S. 586, 604
(1978), we disagree. Lockett’s holding requires that the sentencer in a capital case not be
precluded from considering, as a mitigating factors, any aspect of the defendant’s
character, record, or any of the circumstances of the offense that the defendant proffers as
a basis for a sentence less than death. Id. at 604. We see nothing in Lockett that permits a
defendant to ask a prospective juror the kind of question that Appellant sought to ask
Morgan. The trial court did not abuse its discretion. Point of error thirty-five is overruled.
In point of error thirty-six, Appellant alleges that the trial court erred during voir

237a

Cade 98
dire when it allowed the prosecutor to misstate the law concerning the futuredangerousness special issue. The alleged misstatements occurred during the State’s
questioning of veniremembers Johnlouis and Evans.
The future-dangerousness special issue requires jurors to determine “whether there
is a probability that the defendant would commit criminal acts of violence that would
constitute a continuing threat to society.” Art. 37.071, § 2(b)(1). The record shows that
the prosecutor focused on the implications of the words “would” and “threat” in the
special issue. The prosecutor asserted that the future-dangerousness special issue asks
jurors to consider what threat the defendant’s “mere existence” would pose, even
assuming the possibility that he “would sit in his cell every day and never commit a
criminal act of violence.” Alternatively, the prosecutor explained that the special issue
asks jurors to consider whether the defendant “would” commit criminal acts of violence
that would constitute a continuing threat to society, “if he could.” After the prosecution
rephrased the question, the trial court overruled Appellant’s objections that the
prosecutor’s statements still misstated the law.
We have previously construed the future dangerousness issue as focusing on an
individual’s character for violence and his internal restraints, rather than merely the
external restraints of incarceration and likelihood of incapacitation. See, e.g., Coble, 330
S.W.3d at 268 69; Estrada v. State, 313 S.W.3d 274, 281 82 n.5 (Tex. Crim. App. 2010).
The prosecutor’s statements were generally consistent with this. Accordingly, we

238a

Cade 99
conclude that the trial court acted within its discretion in overruling Appellant’s
objections. Further, the record shows that neither Johnlouis nor Evans served on
Appellant’s jury. Thus, even if we were to determine that error occurred, it did not affect
Appellant’s substantial rights. See T EX. R. A PP. P. 44.2(b). Point of error thirty-six is
overruled.
IX. C ONSTITUTIONAL CHALLENGES TO A RTICLE 37.071
In point of error thirty-seven, Appellant argues that Article 37.071, section 2(f)(4),
violates the Eighth and Fourteenth Amendments to the United States Constitution because
it limits the jurors’ consideration to evidence that implicates the defendant’s moral
blameworthiness. In point of error thirty-eight, Appellant asserts that Article 37.071
violates the Eighth and Fourteenth Amendments because it does not provide a burden of
proof regarding the mitigation special issue. In point of error thirty-nine, Appellant
contends that the “10-12” provision found in Article 37.071, sections 2(d)(2) and (f)(2),
violates the Eighth and Fourteenth Amendments because it misleads the jury. In point of
error forty, Appellant alleges that Article 37.071, section 2(f)(4), violates the Eighth
Amendment because it does not require the jury to consider mitigating evidence, and for
the same reason, the trial court’s jury instruction pursuant to Article 37.071, section
2(f)(4), also violated the Eighth Amendment. In point of error forty-one, Appellant
contends that Article 37.071, section 2(a), violates the Eighth and Fourteenth
Amendments because it prohibits the jury from being informed about the consequences of

239a

Cade 100
a single holdout juror. In point of error forty-two, Appellant asserts that Texas’s capital
sentencing scheme violates the Supreme Court’s holding in Ring v. Arizona, 536 U.S. 583
(2002). In point of error forty-three, Appellant avers that Article 37.071, section 2(b)(1),
violates the Eighth and Fourteenth Amendments because it does not define the terms
“probability,” “continuing threat to society,” “criminal acts of violence,” and “continuing
threat.” In point of error forty-four, Appellant alleges that Article 37.071 violates the
Supreme Court’s holding in Bush v. Gore, 531 U.S. 98 (2000), because it does not
provide a method by which the state determines a defendant’s death-worthiness.
Appellant acknowledges that we have previously rejected claims identical to points
of error thirty-seven through thirty-nine and forty-one through forty-three. See, e.g.,
Coble, 330 S.W.3d at 296; Williams, 301 S.W.3d at 694; Roberts v. State, 220 S.W.3d
521, 534 (Tex. Crim. App. 2007). Although Appellant fails to mention controlling
precedent from this Court, we have previously rejected the claims he raises in points of
error forty and forty-four. See, e.g., Lucero v. State, 246 S.W.3d 86, 102 (Tex. Crim. App.
2008); Saldano v. State, 232 S.W.3d 77, 108 09 (Tex. Crim. App. 2007). Appellant’s
arguments do not persuade us to revisit these issues. Points of error thirty-seven through
forty-four are overruled.
We affirm the judgment of the trial court.
Hervey, J.
Delivered: February 25, 2015

240a

Cade 101
Do Not Publish

241a

